App. 1
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

ERIC D. SPEIDELL,
Petitioner - Appellant,
v.
UNITED STATES OF
AMERICA, through its agency
the Internal Revenue Service,

No. 19-1214

Respondent - Appellee.
THE GREEN SOLUTION
RETAIL, INC., a Colorado
corporation; GREEN SOLUTION, LLC, a Colorado limited
liability company; INFUZIONZ,
LLC, a Colorado limited liability company; GREEN EARTH
WELLNESS, INC., a dissolved
Colorado corporation,
Plaintiffs - Appellants,
v.
UNITED STATES OF
AMERICA, through its agency
the Internal Revenue Service,
Defendant - Appellee.

No. 19-1215

App. 2
GREEN SOLUTION, LLC,
a Colorado limited liability
company; GREEN EARTH
WELLNESS, INC., a dissolved
Colorado limited liability
Company; TGS MANAGEMENT, LLC, a Colorado limited
liability company; S-TYPE
ARMORED, LLC, a Colorado
limited liability company;
IVXX INFUZIONZ, LLC,
a Colorado limited liability
company,

No. 19-1216

Petitioners - Appellants,
v.
UNITED STATES OF
AMERICA, through its agency
the Internal Revenue Service,
Respondent - Appellee.
MEDICINAL WELLNESS
CENTER, LLC, a Colorado
limited liability company;
MEDICINAL OASIS, LLC,
a Colorado limited liability
company; MICHAEL ARAGON,
an individual; JUDY ARAGON,
an individual; STEVEN
HICKOX, an individual,
Petitioners - Appellants,
v.

Nos. 19-1217 &
19-1218

App. 3
UNITED STATES OF
AMERICA, through its agency
the Internal Revenue Service,
Respondent - Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of Colorado
(D.C. Nos. 1:16-MC-00162-PAB, 1:16-MC-00137-PAB,
1:16-MC-00167-PAB, 1:18-MC-00031-PAB,
and 1:17-MC-00170-PAB)
-----------------------------------------------------------------------

(Filed Oct. 20, 2020)
James D. Thorburn (Richard Walker, with him on the
briefs), Thorburn Walker LLC, Greenwood Village, Colorado, appearing for Appellants.
Nathaniel S. Pollock, Attorney, United States Department of Justice, Tax Division, Washington DC (Richard
E. Zuckerman, Principal Deputy Assistant Attorney
General, and Travis A. Greaves, Deputy Assistant Attorney General, United States Department of Justice,
Washington, DC; Gilbert S. Rothenberg and Michael J.
Haungs, Attorneys, United States Department of Justice, Tax Division, Washington, DC; and Jason R. Dunn,
United States Attorney, Office of the United States
Attorney for the District of Colorado, Denver, Colorado,
with him on the briefs), appearing for Appellee.
-----------------------------------------------------------------------

App. 4
Before BRISCOE, MORITZ, and CARSON, Circuit
Judges.
-----------------------------------------------------------------------

BRISCOE, Circuit Judge.
-----------------------------------------------------------------------

This case examines the power of the Appellee,
the Internal Revenue Service (“IRS” or “Agency”), to
enforce a provision in the tax code disallowing deductions for business activities concerning controlled substances which are illegal under federal law. That
provision states as follows:
No deduction or credit shall be allowed for any
amount paid or incurred during the taxable
year in carrying on any trade or business if
such trade or business (or the activities which
comprise such trade or business) consists of
trafﬁcking in controlled substances (within
the meaning of schedule I and II of the Controlled Substances Act) which is prohibited by
Federal law or the law of any State in which
such trade or business is conducted.
26 U.S.C. § 280E. The Appellants are afﬁliated with
marijuana dispensaries in Colorado, where that line
of business is legal under state law. This discrepancy
between federal and state law gives rise to all of the
issues in this case.
The Appellants object to the IRS’s attempts to
collect and audit information about their marijuanarelated business practices. The Appellants argue that
(1) the IRS investigation is quasi-criminal, exceeds the

App. 5
Agency’s authority, and is being conducted for an illegitimate purpose; (2) even if the investigation had a
legitimate purpose, the information sought is irrelevant; and (3) the investigation is in bad faith and constitutes an abuse of process because (a) the IRS may
share the information collected with federal law enforcement agents, (b) the IRS summonses are overly
broad and require the creation of new reports, (c) the
dispensaries have a reasonable expectation of privacy
in the data they tender to state regulatory authorities,
and (d) those state authorities cannot provide the requested information without violating Colorado law.
The Appellants further contend that the district court
applied the wrong standard of review when it denied
motions to quash and granted motions to enforce the
summonses.
These arguments are familiar to us. Over the last
several years, multiple Colorado marijuana dispensaries have challenged the IRS’s ability to investigate
and impose tax consequences upon them. Those dispensaries have been represented by the same attorneys that are representing the dispensaries ﬁghting
the summonses in this case. The dispensaries have
lost every time. See Standing Akimbo, LLC v. United
States, 955 F.3d 1146, 1150–69 (10th Cir. 2020); High
Desert Relief, Inc. v. United States, 917 F.3d 1170,
1174–98 (10th Cir. 2019); Feinberg v. Comm’r of Internal Revenue, 916 F.3d 1330, 1331–38 (10th Cir. 2019);
Alpenglow Botanicals, LLC v. United States, 894 F.3d
1187, 1192–1206 (10th Cir. 2018); Green Sol. Retail,
Inc. v. United States, 855 F.3d 1111, 1112–21 (10th Cir.

App. 6
2017). The same result is warranted here. We afﬁrm
the district court’s rulings in favor of the IRS. Because
Standing Akimbo summarizes much of the relevant
case law and is directly on point for almost every argument raised by the Appellants, this opinion liberally
quotes that decision from earlier this year.
I.

Background

This case involves two sets of Appellants. The ﬁrst
set encompasses Green Earth Wellness, Inc.; Green
Solution, LLC; Infuzionz, LLC; IVXX Infuzionz, LLC;
S-Type Armored, LLC; TGS Management, LLC; The
Green Solution Retail, Inc.; and Eric Speidell (collectively “the Green Solution parties”). Speidell is believed to be (or believed to have been) an owner of some
of the Green Solution entities. The Green Solution parties “are engaged in the retail sale of marijuana and
marijuana-related products,” and advertise themselves as “Colorado’s #1 Marijuana Dispensary.” Aplt.
App., Vol. 1 at 71; id., Vol. 2 at 60.
Pursuant to § 280E, the IRS is auditing the Green
Solution parties’ tax returns for 2013 and 2014. Because some of the Green Solution businesses are passthrough entities for tax purposes, the IRS’s investigation includes Speidell’s individual tax returns. The IRS
requested information and sent summonses to the
Green Solution parties, but only received partial responses that were insufﬁcient “to substantiate the ﬁgures shown on their tax returns.” Id., Vol. 1 at 72–73;
id., Vol. 2 at 60, 81–84. Among other things, the

App. 7
Green Solution parties did not produce information reported to Colorado’s Marijuana Enforcement Division
(“MED”), including information from MED’s Marijuana
Enforcement Tracking Reporting and Compliance
(“METRC”) system. The IRS contends that this information “is particularly valuable during an audit,” because “[i]n Colorado, marijuana growers and
dispensaries must account for all marijuana plants
and products” through METRC, thus potentially conﬁrming “whether a marijuana business properly reported its gross receipts and allowed deductions for
cost of goods sold.” Id., Vol. 2 at 61; id., Vol. 9 at 184.
After unsuccessfully seeking such information from
the Green Solution parties, the IRS served summonses
on MED itself. The IRS also served summonses on the
Green Solution parties’ ﬁnancial institutions.
The Green Solution parties petitioned to quash
the IRS summonses. The IRS moved to dismiss the petitions to quash and also moved to enforce the summonses. In a series of orders, the district court denied
the Green Solution parties’ motions to quash and
granted the IRS’s motions to enforce. Among other
things, the district court held that (1) the IRS had a
legitimate purpose in issuing the summonses because
the Agency has the authority to determine whether a
taxpayer is trafﬁcking in a controlled substance; (2) the
information sought was not already in the IRS’s possession and was relevant to determining the Green Solution parties’ tax obligations; (3) the IRS followed the
required administrative steps; and (4) the Green Solution parties did not show an abuse of process or bad

App. 8
faith because there was no proof the IRS was seeking
to place them in criminal jeopardy. Several of the
Green Solution parties ﬁled a motion to alter or amend,
which the district court denied as well.
The district court denied Speidell’s individual motion to quash on different grounds. The district court
observed that the IRS issued summonses regarding
Speidell to MED on June 7, 2016, but Speidell did not
ﬁle his petition to quash until July 29, 2016, missing
the 20-day deadline set by 26 U.S.C. § 7609(b)(2)(A).
The district court determined that Speidell did not
contradict the IRS agent’s declaration demonstrating
service of the summonses. The district court thus dismissed Speidell’s petition to quash for lack of subject
matter jurisdiction. The district court went on to say
that it was granting the IRS’s motion to dismiss the
petition and enforcing the summonses to MED.
The second set of Appellants encompasses Medicinal Oasis, LLC; Medicinal Wellness Center, LLC; Judy
Aragon; Michael Aragon; and Steven Hickox (collectively “the Medicinal Wellness parties”). The Aragons
and Hickox are believed to be (or believed to have been)
owners of some of the Medicinal Wellness entities. The
Medicinal Wellness parties include a marijuana retail
dispensary, “marijuana grow facilities,” and a cannabis
“superstore” in Colorado. Id., Vol. 6 at 69; id., Vol. 9 at
182. The Medicinal Wellness parties advertise themselves as “full service” with the “largest selection of
cannabis in the world!” Id., Vol. 6 at 69; id., Vol. 9 at
182.

App. 9
Pursuant to § 280E, the IRS is auditing the Medicinal Wellness parties’ tax returns from 2014 through
2016. Because some of the Medicinal Wellness businesses are pass-through entities, the IRS’s investigation includes the personal tax returns of the Aragons
and Hickox. The IRS sent Information Document Requests (“IDRs”) or summonses to the Medicinal Wellness parties, but only received partial responses that
were “not . . . sufﬁcient . . . to substantiate the ﬁgures
shown on their tax returns.” Id., Vol. 6 at 70–71; id.,
Vol. 8 at 42–60; id., Vol. 9 at 183–84. The Medicinal
Wellness parties say they requested immunity from
prosecution before providing further information, but
the IRS declined the request after consulting with the
United States Attorney’s Ofﬁce. The Medicinal Wellness parties did not produce information reported to
MED, including information from MED’s METRC system. The IRS again contends that this information “is
particularly valuable during an audit.” Id., Vol. 2 at 61;
id., Vol. 6 at 71; id., Vol. 9 at 184. After unsuccessfully
seeking such information from the Medicinal Solution
parties, the IRS served summonses on MED itself.
The Medicinal Wellness parties petitioned to
quash the IRS summonses. The IRS moved to dismiss
the petitions to quash and to enforce the summonses.
In a pair of orders, the district court denied the Medicinal Wellness parties’ motions to quash and granted
the IRS’s motions to enforce. Among other things, the
district court held that (1) the IRS had a legitimate
purpose in issuing the summonses because there was
no pending criminal investigation and no right among

App. 10
the Medicinal Wellness parties to demand immunity or
invoke the privilege against self-incrimination; (2) the
information sought was not already in the IRS’s possession and was relevant to determining the Medicinal
Wellness parties’ tax obligations; (3) the IRS followed
the required administrative steps; and (4) the Medicinal Wellness parties did not show an abuse of process
or bad faith because the summonses had a valid purpose, were not ﬁshing expeditions seeking materials
outside MED’s control, did not run afoul of any Fourth
Amendment right to privacy, and did not require MED
to violate Colorado law.
After appeals had been ﬁled in the various Green
Solution and Medicinal Wellness cases, the parties requested a consolidated brieﬁng schedule. This court
obliged, directing the parties to ﬁle consolidated opening, response, and reply briefs. Sua sponte, the court
later directed the parties to ﬁle supplemental briefs
“addressing whether this court’s opinion in Standing
Akimbo is determinative of the outcomes of these consolidated appeals.” 8/4/20 Tenth Circuit Order at 3.
II.

Nearly all of the Appellants’ arguments are
directly foreclosed by circuit precedent

The United States Supreme Court’s decision in
United States v. Powell, 379 U.S. 48 (1964), provides
the framework for our analysis. In general, the IRS has
“broad latitude” to issue summonses for the purpose of
“ascertaining the correctness of any return, making a
return where none has been made, determining the

App. 11
liability of any person for any internal revenue tax,” or
“collecting any such liability.” Standing Akimbo, 955
F.3d at 1154 (quoting United States v. Clarke, 573 U.S.
248, 250 (2014)) (internal quotation marks omitted).
Still, the IRS “must ﬁrst show that it has not made a
referral of the taxpayer’s case” to the Department of
Justice (“DOJ”) for criminal prosecution. Id. (citations
omitted). Thereafter, the IRS must demonstrate good
faith in issuing the summonses, which means “establishing what have become known as the Powell factors.” Id. at 1154–55 (citations omitted). “Powell
requires that the IRS establish (1) ‘that the investigation will be conducted pursuant to a legitimate purpose,’ (2) ‘that the inquiry may be relevant to the
purpose,’ (3) ‘that the information sought is not already
within the [IRS’s] possession,’ and (4) ‘that the administrative steps required by the [Internal Revenue]
Code have been followed.’ ” Id. at 1155 (quoting Powell,
379 U.S. at 57–58) (brackets in original).
We have held that the IRS’s burden in connection
with these factors is “slight,” because statutes like 26
U.S.C. § 7602(a) “must be read broadly to ensure that
the enforcement powers of the IRS are not unduly restricted.” Id. (quoting United States v. Balanced Fin.
Mgmt., Inc., 769 F.2d 1440, 1443 (10th Cir. 1985)). “The
IRS generally meets this burden with an afﬁdavit of
the agent who issued the summons.” Id. Once the IRS
provides such an afﬁdavit, a “heavy” burden falls on
the taxpayer “to factually refute the Powell showing or
factually support an afﬁrmative defense.” Id. “Because
the burden of showing an abuse of the [c]ourt’s process

App. 12
is on the taxpayer,” he or she “must make a substantial
preliminary showing before even limited discovery
need be ordered.” Id. (citations and internal quotation
marks omitted). We review the denial of a petition to
quash for an abuse of discretion, but we review an order granting a motion to dismiss such a petition and
enforcing a summons—as well as any alleged errors of
law—de novo. Id.; see also id. at 1155 n.4 (noting that
a district court’s decision to enforce a summons may be
reviewed for clear error with respect to contested ﬁndings of fact).
The Appellants argue that the rules announced in
our 1985 Balanced Financial Management decision,
which rules impose a “slight” burden on the IRS and a
“heavy” burden on the taxpayer, are incompatible with
normal summary judgment standards and the Supreme Court’s 2014 ruling in Clarke. Although Standing Akimbo does not directly address this issue, the
panel in that case was clearly aware of Clarke and continued to apply Balanced Financial Management principles. See Standing Akimbo, 955 F.3d at 1154–55,
1157, 1160–61, 1163, 1166 (citing both Clarke and Balanced Financial Management). High Desert embraces
a similar analysis. See 917 F.3d at 1181–84, 1187, 1191,
1194 (same). In any event, we need not decide whether
this point in Standing Akimbo and High Desert is dictum or a holding. As discussed below, even if we eschew
descriptions like “slight” and “heavy” and apply traditional summary judgment standards, the Appellants
simply have not submitted proof sufﬁcient to create a
genuine dispute of material fact. The Appellants thus

App. 13
fall short even if we assume arguendo that Balanced
Financial Management has been displaced by Federal
Rule of Civil Procedure 56 and Clarke.
It bears emphasis, however, that Clarke does not
clearly overrule Balanced Financial Management.
Clarke indeed indicates that direct evidence of bad
faith “will rarely if ever be available” at an early stage,
that “circumstantial evidence can sufﬁce,” and that a
taxpayer need not provide a “ﬂeshed out case” to warrant further inquiry. 573 U.S. at 254. But Clarke’s core
holding is that “a bare allegation of improper purpose
does not entitle a taxpayer to examine IRS ofﬁcials. Rather, the taxpayer has a right to conduct that examination when he points to speciﬁc facts or circumstances
plausibly raising an inference of bad faith.” Id. at 249
(emphasis added); see also id. at 254 (“Naked allegations of improper purpose are not enough: The taxpayer must offer some credible evidence supporting his
charge.”). That is at least directionally consistent with
Balanced Financial Management, and the Appellants
have not provided the “speciﬁc facts or circumstances”
required by Clarke. There are other statements in
Clarke that are consistent with Balanced Financial
Management. See 573 U.S. at 250 (stating that the IRS
has “broad latitude” to issue summonses); id. at 250,
254 (stating that the IRS usually makes the required
showing under Powell by ﬁling “an afﬁdavit from the
responsible investigating agent”); id. at 254 (stating
that “summons enforcement proceedings are to be
summary in nature”) (citation and internal quotation
marks omitted); id. (stating that “we have rejected

App. 14
rules that would thwart and defeat the [IRS’s] appropriate investigatory powers”) (citation and internal
quotation marks omitted).
Because any tension created by Clarke is indirect,
we must follow our circuit precedent. “[O]ne panel of
the court cannot overrule circuit precedent” absent “an
intervening Supreme Court or en banc decision justifying such action.” Lincoln v. BNSF Ry. Co., 900 F.3d
1166, 1183 (10th Cir. 2018) (citations omitted). A Supreme Court ruling is “intervening” if it “is contrary to
or invalidates our previous analysis.” Id. (citation omitted). And to reiterate, Clarke does not obviously contradict or invalidate Balanced Financial Management.
A. The rules governing summary judgment
apply, but the Appellants have not
demonstrated a prejudicial error
The Appellants contend that the Rule 56 standards governing motions for summary judgment apply,
rather than the Rule 12 standards governing motions
to dismiss. That is correct. See Standing Akimbo, 955
F.3d at 1155 (“In determining whether the IRS met
Powell’s requirements, we must consider something
outside the pleadings. . . . Because we are considering
[an IRS agent’s] declaration, the IRS’s motion to dismiss must be treated as one for summary judgment
under Rule 56.”) (citation and internal quotation
marks omitted). As in Standing Akimbo, though, the
Appellants have not shown that any application of

App. 15
Rule 12 by the district court affected the outcome of
the case:
The district court correctly applied the Powell
framework but erred by considering [an IRS
agent’s] declaration without converting the
motion to dismiss to a motion for summary
judgment. But we will not reverse or remand
on this error, because “we may afﬁrm on any
basis that the record adequately supports.”
And the record supports the government’s position under the summary-judgment standard. . . . Notably, our traditional summaryjudgment standard of review precludes the
Taxpayers from resting on conclusory statements because such statements do not sufﬁce
to create a genuine issue of material fact.
Id. at 1155–56 (quoting High Desert, 917 F.3d at 1181)
(other citations and internal quotation marks omitted).
Put another way, the Appellants in this case rely on the
same types of evidence (and the same types of attacks
on the IRS’s evidence) that they proffered in Standing
Akimbo. See, e.g., Aplt. Br. at 25 (recognizing that one
of the IRS agent’s declarations in this case “is nearly
identical to the Declaration he submitted in Standing
Akimbo”); Aple. Suppl. Br. at 5 (“The afﬁdavits ﬁled by
the IRS agents who issued the summonses here on appeal are materially similar to the afﬁdavit that this
Court determined to be sufﬁcient to meet the Powell
standard in Standing Akimbo.”). That evidence and the
attacks on the IRS’s evidence did not create a genuine
dispute of material fact in Standing Akimbo, and they
create no such dispute here.

App. 16
For example, as in Standing Akimbo, each Appellant repeatedly claims that the declarations tendered
by the IRS are too “conclusory” to justify summary
judgment. Aplt. Br. at 25; Aplt. Rep. Br. at 16–17; Aplt.
Suppl. Br. at 5. Under Rule 56, they are not. The agents
have ﬁrst-hand knowledge of the matters at issue, and
their testimony consists of more than mere legal conclusions. “So long as an afﬁdavit is based upon personal
knowledge and set[s] forth facts that would be admissible in evidence, it is legally competent to oppose summary judgment, irrespective of its self-serving nature.”
Sanchez v. Vilsack, 695 F.3d 1174, 1180 n.4 (10th Cir.
2012) (brackets in original, citations and internal quotation marks omitted); see also Greer v. City of Wichita,
Kan., 943 F.3d 1320, 1325 (10th Cir. 2019) (agreeing
that self-serving testimony satisfying these criteria is
useable on summary judgment, because “virtually any
party’s testimony can be considered ‘self-serving’ ”).
In their supplemental brief, the Appellants assert
that “the Standing Akimbo Court determined that the
Taxpayers waived all arguments as to standard of review.” Aplt. Suppl. Br. at 3. That is true to a degree, but
incomplete. We did state in Standing Akimbo that the
Taxpayers “waived appellate review” as to the standard of review “by failing to raise it in their objections
to the magistrate judge’s recommendation.” 955 F.3d at
1156 n.5. Yet that footnoted point essentially was made
in the alternative. In the text of the Standing Akimbo
opinion, we addressed on the merits—and at some
length—the appropriate standard of review, making
clear that “we will apply our traditional Rule 56

App. 17
summary-judgment standard in assessing this case.”
Id. at 1156.
B. There is no genuine dispute of material
fact regarding the Powell factors
1. The IRS has not made referrals to
the DOJ for prosecution
The Appellants have not pointed to competent evidence contradicting the IRS’s denial that the cases at
issue have been referred to the DOJ for prosecution.
Declarations submitted by IRS agents state that no
such referral is in effect. Aplt. App., Vol. 1 at 74; id., Vol.
2 at 62; id., Vol. 6 at 74; id., Vol. 9 at 187. As noted in
Standing Akimbo, “an ‘afﬁdavit of the agent who issued the summons and who is seeking enforcement’ is
sufﬁcient to make ‘[t]he requisite showing.’ ” 955 F.3d
at 1156 (quoting High Desert, 917 F.3d at 1184). That
is particularly true when, as in this case, there is no
proof to the contrary.
2. The IRS is conducting the investigations for a legitimate purpose
Nor have the Appellants pointed to evidence contradicting the IRS’s explanation of the purpose of the
audits of the Green Solution and Medicinal Wellness
parties. Among other things, the declarations from IRS
agents state that the Agency is investigating the Appellants’ federal tax liabilities, “verifying the accounting records,” “reconstructing income,” “substantiating
the tax returns at issue,” and conﬁrming business

App. 18
relationships. Aplt. App., Vol. 1 at 71–73; id., Vol. 2 at
58–61; id., Vol. 6 at 68–71; id., Vol. 9 at 182–84. Rather
than challenging these factual assertions, the Appellants maintain that (1) the IRS lacks authority to decide whether the Appellants’ conduct is prohibited by
the Controlled Substances Act (“CSA”); and (2) the
IRS’s powers do not supersede or preempt Colorado
law. Neither argument has legs.
We have rejected the Appellants’ “lack of authority” argument several times, most recently in Standing
Akimbo. We said:
[T]he Taxpayers argue that the IRS acted
with an illegitimate purpose, namely, investigating federal drug crimes. We have already
rejected this argument. In 2017, we observed
that “the IRS’s obligation to determine
whether and when to deny deductions under
§ 280E[ ] falls squarely within its authority
under the Tax Code.” Green Sol. Retail, 855
F.3d at 1121[.] The next year we held that “it
is within the IRS’s statutory authority to determine, as a matter of civil tax law, whether
taxpayers have trafﬁcked in controlled substances.” Alpenglow[, 894 F.3d at 1187]. Most
recently in High Desert, we relied on Green
Solution and Alpenglow to hold that the IRS
has statutory authority to “mak[e] a determination that Congress expressly asked it to
make—even if that determination requires
the IRS to ascertain whether the taxpayer is
engaged in conduct that could subject him or
her to criminal liability under the CSA.” High
Desert, 917 F.3d at 1187. So, even if the IRS

App. 19
had in fact issued the summonses to investigate federal drug crimes (and the Taxpayers
have furnished no evidence of that), the IRS
could still do so as part of determining
§ 280E’s applicability.
955 F.3d at 1157 (various brackets added, further citations omitted).
We have rejected the Appellants’ “preemption” argument as well. Once more, we explained in detail in
Standing Akimbo why the argument is unavailing:
The CSA does not have to preempt Colorado
law for § 280E to apply. Section 280E applies
when a business’s activities “consist[ ] of trafﬁcking in controlled substances (within the
meaning of schedule I and II of the Controlled
Substances Act) which is prohibited by Federal law or the law of any State in which such
trade or business is conducted.” 26 U.S.C.
§ 280E (emphasis added). Congress’s use of
“or” extends the statute to situations in which
federal law prohibits the conduct even if state
law allows it. Further, the CSA reigns supreme. “[S]tate legalization of marijuana cannot overcome federal law.” Feinberg[, 916 F.3d
at 1338 n.3]. So, despite legally operating under Colorado law, “the Taxpayers are subject
to greater federal tax liability” because of
their federally unlawful activities, and any
“remedy [for this] must come from Congressional change to § 280E or 21 U.S.C. § 812(c)
(Schedule I) rather than from the courts.” [Id.]

App. 20
955 F.3d at 1158 (various brackets added, emphasis in
original, further citations omitted); see also id. at 1168
n.21 (“The Supremacy Clause enables federal law to
preempt state law when it stands as an obstacle to the
accomplishment and execution of the full purposes and
objectives of Congress. So, even if the Taxpayers’ interpretation were correct, the Colorado statutes would
have to yield.”) (citations and internal quotation marks
omitted).
3. The information sought by the IRS is
relevant
The Appellants likewise have not established a
genuine dispute of material fact concerning whether
the information sought by the IRS is relevant to the
purpose of the investigations. For instance, the declarations submitted by IRS agents state that METRC
data requested in the summonses may show “whether
a marijuana business properly reported its gross receipts and allowed deductions for cost of goods sold.”
Aplt. App., Vol. 2 at 61; id., Vol. 6 at 71; id., Vol. 9 at
184. The declarations also indicate that information
from MED “may be relevant to determine the correctness” of the individual owners’ “federal tax returns”
and “federal tax liabilities.” Id., Vol. 1 at 74; id., Vol. 6
at 73; id., Vol. 9 at 186. Given that the IRS “has authority to summon information ‘of even potential relevance to an ongoing investigation,’ ” Standing
Akimbo, 955 F.3d at 1160 (quoting United States v.
Arthur Young & Co., 465 U.S. 805, 814 (1984)) (emphasis in original), the uncontradicted, sworn statements

App. 21
of knowledgeable IRS agents are sufﬁcient to construe
this Powell factor in the IRS’s favor. In addition, “the
Taxpayers concede that METRC information is relevant in determining whether they trafﬁcked in marijuana—a relevant and proper inquiry the IRS may
make in determining § 280E’s application.” Id. (citing
High Desert, 917 F.3d at 1187, and Alpenglow, 894 F.3d
at 1197).
4. The IRS does not already possess the
information summoned
The declarations provided by IRS agents further
establish that the Agency does not have the information sought. Among the statements in those declarations are that the documentation provided by
Appellants is incomplete, and “[t]he IRS does not already possess the books, papers, records, and other
data sought by the summonses issued to MED.” Aplt.
App., Vol. 1 at 72–74; id., Vol. 2 at 60–62; id., Vol. 6 at
70–73; id., Vol. 9 at 183–86. Like the Taxpayers in
Standing Akimbo, the Appellants in the case at bar
have “failed to demonstrate the existence of a genuine
factual dispute whether the IRS already possessed the
information summoned.” 955 F.3d at 1160.
5. The IRS followed all administrative
steps
Finally, the IRS declarations show that the Agency
adhered to administrative procedures. The agents
speciﬁcally aver that they “complied with the

App. 22
administrative steps required by the Internal Revenue
Code.” Aplt. App., Vol. 1 at 74; id., Vol. 2 at 62; id., Vol.
6 at 73; id., Vol. 9 at 186. As stated in Standing Akimbo,
the Appellants “do not contest on appeal that this factor has been met.” 955 F.3d at 1161.
C. There is no genuine dispute of material
fact as to any alleged lack of good faith
or abuse of process
1. The IRS’s ability to communicate
with the DOJ does not evince bad
faith
Citing cases like Boyd v. United States, 116 U.S.
616 (1886) and Marchetti v. United States, 390 U.S. 39
(1968), the Appellants proclaim that the IRS’s refusal
to grant immunity constitutes bad faith and makes
these proceedings quasi-criminal. It doesn’t. In the
words of Standing Akimbo, the Appellants “proffer
nothing to support their conclusory assertion that the
IRS’s refusal to grant immunity turned its civil tax
investigation ‘quasi-criminal.’ ” 955 F.3d at 1161. We
observed in Standing Akimbo that Boyd “dealt with a
forfeiture prescribed by a criminal statute as a penalty
for committing fraud,” and is “inapposite to a strictly
civil investigation into whether the Taxpayers violated
the tax code.” Id. at 1162. We also commented that the
IRS presented sworn testimony that no referral had
been made to the DOJ, and “[t]he Taxpayers have offered no evidence that the government is criminally investigating them, let alone that the IRS is involved.”
Id. at 1162 & nn.12–13; see also id. at 1162 (remarking

App. 23
that “the summonses are enforceable notwithstanding
the possibility of later referral”). Those rulings apply
here.
Moreover, Standing Akimbo explains why the
Marchetti line of cases does not support the Appellants’
position. Id. at 1161 & n.11. We reasoned in Standing
Akimbo that Marchetti does not “remove the IRS’s
ability to issue summonses under § 7602 when investigating potential § 280E violations.” Id. at 1163. We
further recognized that “in Alpenglow, we distinguished Marchetti and its related cases from the IRS’s
investigations under § 280E.” Id. (citing Alpenglow,
894 F.3d at 1197). In sum, “[t]he Marchetti line of cases
is inapposite: those cases involve the invocation of a
Fifth Amendment privilege to overcome IRS regulations requiring a taxpayer to disclose information carrying a real risk of self-incrimination.” Id. Parallel to
Standing Akimbo, the Appellants “have not raised a
Fifth Amendment challenge on appeal, and § 280E
does not require the disclosure of incriminating information.” Id.
2. The summonses do not require the
creation of reports and are not impermissibly broad
The Appellants next argue that the summonses to
MED only vaguely request “reports,” Aplt. Br. at 25–26,
and as construed by the district court, the summonses
amount to overly broad fishing expeditions. Id. at
35–36. The Taxpayers in Standing Akimbo failed to

App. 24
provide competent evidence that any summons forced
MED to create documents. 955 F.3d at 1163. The same
is true for the Appellants here. Regardless, if MED
“does not have the requested reports, then by the IRS’s
guidelines [MED] need not create and produce them.
Nothing requires [MED] to create the records, and the
summons does not purport to say otherwise.” Id. at
1164. This reasoning renders irrelevant Appellants’ argument that the IRS should bear the burden of proving
the existence of any requested report. Aplt. Suppl. Br.
at 5–7.
The Taxpayers in Standing Akimbo correspondingly provided “no authority for their contention that
the summonses are overbroad,” and ignored that “the
summonses speciﬁcally describe the information they
seek and limit the request to the tax years in question.”
955 F.3d at 1166. The same holds true in the case at
hand. “Powell does not require that the IRS explain
why it seeks information beyond showing its potential
relevance to a legitimate purpose. The IRS has shown
the information summoned is relevant, and the Taxpayers failed to rebut this showing.” Id.; see also id.
(“The summonses are thus proportionate to the ends
sought and are not a ‘ﬁshing expedition.’ ”).
3. The IRS does not need probable cause
to summon METRC data
Principally relying on Carpenter v. United States,
138 S. Ct. 2206 (2018), the Appellants contend that
they have a reasonable expectation of privacy in

App. 25
METRC information under the Fourth Amendment,
requiring the IRS to obtain search warrants supported
by probable cause. After analyzing Carpenter’s effect
on the “third-party doctrine,” we rejected the Appellants’ Fourth Amendment argument in Standing
Akimbo:
The Taxpayers have no reasonable expectation of privacy in the METRC data collected
on their business. . . . “[A] person has no legitimate expectation of privacy in information he
voluntarily turns over to third parties.” This
principle, known as the third-party doctrine,
applies “even if the information is revealed on
the assumption that it will be used only for a
limited purpose.” The Supreme Court recently
reafﬁrmed this doctrine in Carpenter. . . .
Contrary to the Taxpayers’ assertions, Carpenter’s ﬁnding precluding the third-party
doctrine’s application does not apply to them.
Carpenter examined a narrow issue: whether
the third-party doctrine should apply to the
collection of cell-site-location information
(CSLI). The METRC records differ markedly
from CSLI. METRC tracks the movement of
plants, and CSLI tracks people. Further, the
Taxpayers voluntarily provided the information summoned to [MED] so they could legally conduct their business; this differs from
CSLI, which collects information without any
afﬁrmative act on the part of the user beyond
powering up. . . .
The third-party doctrine applies to the
METRC data summoned here. The Taxpayers

App. 26
chose to operate a marijuana business under
Colorado law and, thus, agreed to provide certain information to [MED]. . . . The METRC
reports are [MED’s] property—the Taxpayers
have no ownership, possession, or proprietary
interest in them. So the Taxpayers have no expectation of privacy in these reports. Because
the Taxpayers have no Fourth Amendment
right at stake, the IRS need not obtain a warrant supported by probable cause to get the
records.
955 F.3d at 1164–65 (quoting Smith v. Maryland, 442
U.S. 735, 743–44 (1979) and United States v. Miller,
425 U.S. 435, 442–44 (1976)) (other citations and internal quotation marks omitted). Additionally, we held
that while Colorado law does treat the information as
conﬁdential, it also allows disclosure under certain circumstances, and “even if the statute somehow provides
the Taxpayers with a right of privacy here, the statute
would be preempted by the Supremacy Clause.” Id. at
1165.
4. Enforcing the summonses will not
compel a violation of Colorado law
The Appellants insist that enforcing the summonses is improper, because MED cannot disclose
METRC information without violating Colorado law.
As alluded to above, that argument was dismantled in
Standing Akimbo. Referencing the current versions of
the statutes, we held that state law permits disclosure
of conﬁdential data for an authorized purpose, such as

App. 27
“allowing a law-enforcement agency’s investigation
into a medical marijuana dispensary’s unlawful activity.” 955 F.3d at 1167 (citing Colo. Rev. Stat. Ann. §§ 4410-201(4), 44-10-202(3), and 44-10-204(1)). We therefore concluded that a MED employee’s compliance with
a summons seeking METRC information “would not
constitute a crime.” Id. at 1167-68. For the reasons expressed in Standing Akimbo, the Appellants’ contrary
interpretation disregards the “plain language” of the
statutes and is “unpersuasive.” Id. at 1168. And a third
party, MED, “holds the information,” removing any
“Fifth Amendment interests” the Appellants otherwise
may have had in this data. Id.
III. The district court’s dismissal of Speidell’s
petition on timeliness grounds was proper
As set forth above, Speidell’s individual petition to
quash fails as a matter of law, irrespective of whether
it was timely ﬁled. As the district court recognized,
however, Speidell’s petition was ﬁled outside of the
statutory deadline, robbing the court of subject matter
jurisdiction to consider it. Although the United States
enjoys sovereign immunity from suit, it has waived immunity to allow a taxpayer to bring a petition to quash
a summons seeking information from a third party. See
generally 26 U.S.C. § 7609. Nevertheless, a taxpayer
must ﬁle such a petition no later than the twentieth
day after notice of the summons is given. 26 U.S.C.
§ 7609(b)(2)(A); see also Faber v. United States, 921
F.2d 1118, 1119 (10th Cir. 1990) (“The government’s
waiver of sovereign immunity ends—and thus

App. 28
jurisdiction ends—when the twenty-day limitation period has run.”). The district court concluded the proof
submitted by the IRS showed that Speidell missed this
deadline, and Speidell did not present competent evidence to the contrary. Nothing in the appellate record
calls into question the district court’s ﬁnding of untimeliness.
Speidell asserts that the IRS waived sovereign immunity by ﬁling a motion to enforce the summons, and
the district court’s decision to grant the motion conﬁrms the existence of subject matter jurisdiction. The
IRS effected no such waiver. The IRS phrased its arguments in the alternative, asking the district court to
enforce the summons only if the court denied the IRS’s
motion to dismiss pursuant to Rule 12(b)(1). See Aplt.
App., Vol. 1 at 53 (asking for dismissal on jurisdictional
grounds and, “[i]n the alternative,” to enforce the
summons); id. at 54 (seeking enforcement “[i]n the
alternative, to the extent Petitioner’s arguments are
addressed on the merits”); id. at 57 (asking for dismissal but, “[i]n the alternative,” explaining why Speidell’s
substantive theories lacked merit); id. at 58 (after requesting jurisdictional dismissal, arguing that “In the
Alternative, the Petition Fails to State a Claim for
Relief ”) (emphasis omitted); id. at 68 (“[T]he Court
should issue an order dismissing the petition for lack
of jurisdiction. In the alternative, should the Court address the petition on the merits, it should issue an order dismissing the petition and enforcing the summons
issued to MED.”). The IRS thus clearly and unmistakably did not waive sovereign immunity or invite the

App. 29
district court to bypass the issue of subject matter jurisdiction.
Speidell points out that the district court’s order
not only dismissed his petition to quash, but also purported to enforce the summons. As the IRS notes on
appeal, though, “[t]his was almost certainly just an
oversight; the court’s opinion dealt only with the jurisdictional issue and did not address the validity of the
summons.” Aple. Br. at 25. At most, the effect of this
technical error was to neutralize the “enforcement”
provisions of the district court’s order. It did not somehow eliminate the IRS’s ability to rely on sovereign immunity or a statutory timeliness argument, and
Speidell cites no on-point authority in his opening appellate brief (or in his appellate reply brief ) to prove
otherwise. Aplt. Br. at 9 n.3, 38–39; Aplt. Rep. Br. at
30–32.1 As the Supreme Court has remarked in a related context, “[j]urisdiction over any suit against the
Government requires a clear statement from the
1

Speidell’s main case is Steadfast Ins. Co. v. Agric. Ins. Co.,
507 F.3d 1250 (10th Cir. 2007), which involved immunity from
federal lawsuits enjoyed by states under the Eleventh Amendment. Id. at 1252–53. We recognized that an immunity waiver
may occur “either when a state voluntarily invokes the jurisdiction of a federal court, or when a state makes a clear declaration
that it intends to submit itself to a federal court’s jurisdiction.” Id.
(citation and internal quotation marks omitted). Nonetheless, we
emphasized that “we will not readily ﬁnd” such a waiver, id. at
1252, and we rejected a waiver claim in part because a state
agency “immediately contested federal court jurisdiction based on
its right to Eleventh Amendment immunity.” Id. at 1256 (citation
omitted). The IRS also immediately contested subject matter jurisdiction, asking the district court to enforce the summons only
if the IRS lost its jurisdictional challenge.

App. 30
United States waiving sovereign immunity, together
with a claim falling within the terms of the waiver. The
terms of consent to be sued may not be inferred, but
must be unequivocally expressed.” United States v.
White Mountain Apache Tribe, 537 U.S. 465, 472 (2003)
(citations and internal quotation marks omitted); see
also Flute v. United States, 808 F.3d 1234, 1239 (10th
Cir. 2015) (“[W]e will ﬁnd the government has waived
sovereign immunity only when its consent to be sued
is unequivocally expressed.”) (citation and internal
quotation marks omitted).
IV. Conclusion
For the foregoing reasons, we AFFIRM the district
court’s decisions denying or dismissing the Appellants’
petitions to quash and granting the Appellee’s motions
to enforce the summonses.

App. 31
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

ERIC D. SPEIDELL,
Petitioner - Appellant,
v.
UNITED STATES OF
AMERICA, through its agency
the Internal Revenue Service,

No. 19-1214
(D.C. No. 1:16-MC00162-PAB)
(D. Colo.)

Respondent - Appellee.
THE GREEN SOLUTION
RETAIL, INC., a Colorado
corporation; GREEN SOLUTION, LLC, a Colorado limited
liability company; INFUZIONZ,
LLC, a Colorado limited liability company; GREEN EARTH
No. 19-1215
WELLNESS, INC., a dissolved (D.C. No. 1:16-MCColorado corporation,
00137-PAB)
(D. Colo.)
Plaintiffs - Appellants,
v.
UNITED STATES OF
AMERICA, through its agency
the Internal Revenue Service,
Defendant - Appellee.

App. 32
GREEN SOLUTION, LLC,
a Colorado limited liability
company; GREEN EARTH
WELLNESS, INC., a dissolved
Colorado limited liability
Company; TGS MANAGEMENT, LLC, a Colorado limited
liability company; S-TYPE
ARMORED, LLC, a Colorado
limited liability company;
IVXX INFUZIONZ, LLC,
a Colorado limited liability
company,

No. 19-1216
(D.C. No. 1:16-MC00167-PAB)
(D. Colo.)

Petitioners - Appellants,
v.
UNITED STATES OF
AMERICA, through its agency
the Internal Revenue Service,
Respondent - Appellee.
MEDICINAL WELLNESS
CENTER, LLC, a Colorado
limited liability company;
MEDICINAL OASIS, LLC,
Nos. 19-1217 &
a Colorado limited liability
19-1218
company; MICHAEL ARAGON, (D.C. Nos. 1:18-MCan individual; JUDY ARAGON,
00031-PAB and
an individual; STEVEN
1:17-MC-00170-PAB)
HICKOX, an individual,
(D. Colo.)
Petitioners - Appellants,
v.

App. 33
UNITED STATES OF
AMERICA, through its agency
the Internal Revenue Service,
Respondent - Appellee.
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

(Filed Oct. 20, 2020)
Before BRISCOE, MORITZ, and CARSON, Circuit
Judges.
-----------------------------------------------------------------------

These cases originated in the District of Colorado
and was argued by counsel.
The judgments of that court are afﬁrmed.
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT,
Clerk

App. 34
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer
Miscellaneous Action No. 16-mc-00162-PAB
ERIC D. SPEIDELL,
Petitioner,
v.
UNITED STATES OF AMERICA, through its agency
the Internal Revenue Service,
Respondent.
ORDER
(Filed Apr. 24, 2019)
This matter is before the Court on petitioner’s
Amended Petition to Quash Summons [Docket No. 6],
the United States’ Motion to Dismiss [Docket No. 10],
and the Petitioner’s Motion for the Court to Postpone
its Ruling Until an Opinion has Been Issued in Appellate Case No. 16-1281 [Docket No. 18].
Petitioner is an owner and operator of The Green
Solution Retail, Inc. and several related entities (collectively, “The Green Solution”) that are engaged in the
retail sale of marijuana-related products in Colorado.
Docket No. 10-1 at 2, ¶ 4. The Internal Revenue Service
(“IRS”) is conducting a civil audit of petitioner and The
Green Solution’s tax liability for ﬁscal years 2013 and
2014. Id. at 2-3, ¶¶ 9-10, 12. In relation to the audit,
the IRS seeks records to establish the federal tax

App. 35
liability for The Green Solution. Id. at 3, ¶¶ 13-14, 17.
On July 5, 2016, the IRS sent a summons to the Colorado Department of Revenue’s Marijuana Enforcement Division (“MED”) seeking information about
“marijuana licenses and business names used by Mr.
Speidell.” Docket No. 10-1 at 4, ¶ 22. The same day, the
IRS sent a notiﬁcation to petitioner by certiﬁed mail
that the summons had issued. Docket No. 10-1 at 17.
Petitioner states that his attorneys received the summons on July 28, 2016. Docket No. 6-2 at 1, ¶ 4. Petitioner now seeks to quash the summons. Docket No. 6.1
The United States’ motion to dismiss is brought,
in part, under Fed. R. Civ. P. 12(b)(1). A motion under
Fed. R. Civ. P. 12(b)(1) is a request for the Court to dismiss a claim for lack of subject matter jurisdiction. Fed.
R. Civ. P. 12(b)(1). A petitioner bears the burden of establishing that the Court has jurisdiction. Basso v.
Utah Power & Light Co., 495 F.2d 906, 909 (10th Cir.
1974). When the Court lacks subject matter jurisdiction over a claim for relief, dismissal is proper under
Rule 12(b)(1). See Jackson v. City and Cty. of Denver,
2012 WL 4355556 at *1 (D. Colo. Sept. 24, 2012).
Rule 12(b)(1) challenges are generally presented
in one of two forms: “[t]he moving party may (1) facially
1

Petitioner moved the Court to withhold ruling on his petition until the Tenth Circuit decided an appeal by The Green Solution Retail, Inc. in a related case, No. 16-1281. The Tenth
Circuit has decided that appeal. See Green Sol. Retail, Inc. v.
United States, 855 F.3d 1111 (10th Cir. 2017). Accordingly, the
Court will deny petitioner’s request to withhold a ruling as moot.
See Docket No. 18.

App. 36
attack the complaint’s allegations as to the existence
of subject matter jurisdiction, or (2) go beyond allegations contained in the complaint by presenting evidence to challenge the factual basis upon which subject
matter jurisdiction rests.” Merrill Lynch Bus. Fin.
Servs., Inc. v. Nudell, 363 F.3d 1072, 1074 (10th Cir.
2004) (quoting Maestas v. Lujan, 351 F.3d 1001, 1013
(10th Cir. 2003)). The court may review materials outside the pleadings without converting the Rule 12(b)(1)
motion to dismiss into a motion for summary judgment. Davis ex rel. Davis v. U.S., 343 F.3d 1282, 1296
(10th Cir. 2003).
The United States is immune from suit without its
consent. United States v. Testan, 424 U.S. 392, 399
(1976). A waiver of sovereign immunity must be unambiguously expressed in statutory text and is strictly
construed in favor of the sovereign. Lane v. Pena, 518
U.S. 187, 192 (1996). One such statutory waiver of sovereign immunity allows a taxpayer to bring petitions
to quash summonses when the IRS seeks information
from third parties about that taxpayer. 26 U.S.C.
§ 7609 (I.R.C. § 7609). If a taxpayer wishes to bring a
proceeding to quash a summons issued to a third party,
he or she must do so no later than the 20th day after
the day notice of the summons is given. 26 U.S.C.
§ 7609(b)(2)(A) (I.R.C. § 7609(b)(2)(A)). Notice is
deemed sufﬁcient if it is sent by certiﬁed or registered
mail to the last known address of the person entitled
to notice. 26 U.S.C. § 7609(a)(2) (I.R.C. § 7609(a)(2)).
IRS Revenue Agent David Hewell states that he
issued the summons to MED on June 7, 2016 and

App. 37
provided notice to petitioner via certiﬁed mail sent to
petitioner’s address on the same day. See Docket No.
10-1 at 4-5, ¶¶ 22, 25. Petitioner ﬁled his motion to
quash on July 29, 2016, more than 20 days after Revenue Agent Hewell provided petitioner with notice by
certiﬁed mail. See Docket No. 2. As a result, petitioner’s
petition appears to be untimely. See Cosme v. I.R.S.,
708 F. Supp. 45, 46-47 (E.D.N.Y. 1989).
Petitioner raises several arguments in response.
First, he suggests that considering Revenue Agent
Hewell’s declaration converts defendant’s motion into
a motion for summary judgment, requiring a different
standard of review. See Docket No. 14 at 7. However,
the Court may review materials outside the pleadings
without converting a Rule 12(b)(1) motion into a motion for summary judgment. See Davis, 343 F.3d at
1296. Petitioner, not defendant, has the burden of establishing that this Court has subject matter jurisdiction to hear the case. See Basso, 495 F.2d at 909.
Second, petitioner argues that “authentic and admissible evidence” does not indicate that Revenue Agent
Hewell mailed the summons to petitioner. See Docket
No. 14 at 7. This argument ignores Revenue Agent
Hewell’s sworn afﬁdavit that he mailed the summons,
along with an accompanying certiﬁcate and mail receipt. See Docket No. 10-1 at 4-5, ¶¶ 22, 25; and at 17.
Third, petitioner suggests that the Post Ofﬁce has no
record of the certiﬁed mail receipt provided by defendant. See Docket No. 14 at 8. However, the tracking
number on the screenshot provided by petitioner does
not match the tracking number on the certiﬁed mail

App. 38
receipt. Compare Docket No. 10-1 at 17 (tracking number 70110470000197685653) with Docket No. 14-2
(tracking number 70110470000197605653). Thus, his
argument lacks support. Finally, petitioner asks the
Court to make the “reasonable inference” that petitioner would have ﬁled a timely response if he had received the summons. See Docket No. 14 at 8. However,
the statute only requires that the summons be mailed
within a certain time, not that petitioner actually receives the summons. See 26 U.S.C. § 7609(b)(2)(A)
(I.R.C. § 7609(b)(2)(A)).
Because petitioner did not ﬁle his petition within
20 days of notice being sent by the IRS, the Court does
not have subject matter jurisdiction to hear this case.
See Cosme, 708 F. Supp. at 47.
Therefore, it is
ORDERED that petitioner’s Amended Petition to
Quash Summons [Docket No. 6] is DISMISSED for
lack of subject matter jurisdiction. It is further
ORDERED that the United States’ Motion to Dismiss [Docket No. 10] is GRANTED. The summons
issued to the Colorado Department of Revenue’s Marijuana Enforcement Division is ENFORCED pursuant
to 26 U.S.C. § 7604. It is further
ORDERED that the Petitioner’s Motion for the
Court to Postpone its Ruling Until an Opinion has
Been Issued in Appellate Case No. 16-1281 [Docket No.
18] is DENIED as moot. It is further
ORDERED that this case is closed.

App. 39
DATED April 24, 2019.
BY THE COURT:
s/Philip A. Brimmer
PHILIP A. BRIMMER
Chief United States District Judge

App. 40
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer
Miscellaneous Action No. 16-mc-00162-PAB
GREEN SOLUTION, LLC, a Colorado Limited
Liability Company, GREEN EARTH WELLNESS,
INC., a dissolved Colorado Limited Liability
Company, TGS MANAGEMENT, LLC, a Colorado
Limited Liability Company, S-TYPE ARMORED,
LLC, a Colorado Limited Liability Company, and
IN/XX INFUZIONZ, LLC, a Colorado Limited
Liability Company,
Petitioners,
v.
UNITED STATES OF AMERICA, through its agency
the Internal Revenue Service,
Respondent.
ORDER
(Filed Apr. 24, 2019)
This matter is before the Court on petitioners’ Petition to Quash Sum monses [Docket No. 1], the United
States’ Motion to Dismiss and Enforce Summonses
[Docket No. 7], and the Petitioners’ Motion for the
Court to Postpone its Ruling Until an Opinion has
Been Issued in Appellate Case No. 16-1281 [Docket No.
15].

App. 41
I.

BACKGROUND

Petitioners are related business entities, operated
by Nicholas, Kyle, and Eric Speidell, that are engaged
in the retail sale of marijuana-related products in
Colorado. Docket No. 7-1 at 3, ¶¶ 10-11. The Internal
Revenue Service (“IRS”) is conducting a civil audit of
petitioners’ tax liability for ﬁscal years 2013 and 2014.
Docket No. 1 at 5, ¶ 18; Docket No. 7-1 at 2, ¶¶ 4-5. In
relation to the audit, David Hewell, an IRS revenue
agent, informed petitioners that his department had
made a determination that petitioners were trafﬁcking
in a controlled substance and Revenue Agent Hewell
requested that petitioners provide records to establish
the extent of their activities. Docket No. 1 at 5-6, ¶¶ 1920; Docket No. 7-1 at 4, ¶ 15. In response to Revenue
Agent Hewell’s requests, petitioners produced bank
records, which Revenue Agent Hewell believed were
insufﬁcient to substantiate the ﬁgures shown on petitioners’ tax returns. Docket No. 1 at 6, ¶ 20; Docket No.
7-1 at 4-5, ¶¶ 14-20. The IRS subsequently issued summonses to Wells Fargo Bank, NA, Verus Bank of Commerce, and Partner Colorado Credit Union seeking
petitioners’ “account information, bank statements,
cancelled checks, wire transfer authorizations, deposit
slips, correspondence, and other banking documents.”
Docket No. 7-1 at 5, ¶¶ 21-23. Petitioners now seek to
quash those summonses, Docket No. 1, and the government is seeking to enforce the summonses. Docket No.
7.
In a separate proceeding, petitioner The Green Solution Retail, Inc. (“Green Solution”) sought similar

App. 42
relief against the IRS. See Green Sol. Retail, Inc. v.
United States, 855 F.3d 1111, 1113 (10th Cir. 2017)
(“Green Solution”).1 The Tenth Circuit afﬁrmed the
trial court’s dismissal of Green Solution’s claims as
barred by the Anti-Injunction Act, 26 U.S.C. § 7421 (Internal Revenue C. § 7421). The Tenth Circuit rejected
Green Solution’s argument that the IRS acted outside
its authority, concluding that “the IRS’s obligation to
determine whether and when to deny deductions under § 280E[ ] falls squarely within its authority under
the Tax Code.” Green Solution, 855 F.3d at 1121.
II.

DISCUSSION

In order to enforce a summons, the IRS must show
that the “investigation will be conducted pursuant to a
legitimate purpose, that the inquiry may be relevant to
the purpose, that the information sought is not already
within the IRS Commissioners possession, and that
the administrative steps required by the Tax Code
have been followed—in particular, that the ‘Secretary
[of the Treasury] or his delegate,’ after investigation,
has determined the further examination to be necessary and has notiﬁed the taxpayer in writing to that
effect.” United States v. Powell, 379 U.S. 48, 57-58

1

Petitioners moved the Court to withhold ruling on their petition until the Tenth Circuit decided Green Sol. Retail, Inc.’s appeal. See Docket No. 15. As the Tenth Circuit decided that appeal
in Green Solution, 855 F.3d 1111 (10th Cir. 2017), the Court will
deny petitioners’ motion to withhold a ruling as moot. See Docket
No. 15.

App. 43
(1964).2 The IRS’s burden “is a slight one because the
statute must be read broadly in order to ensure that
the enforcement powers of the IRS are not unduly restricted.” United States v. Balanced Fin. Mgmt., Inc.,
769 F.2d 1440, 1443 (10th Cir. 1985) (citation omitted).
“The requisite showing is generally made by afﬁdavit
of the agent who issued the summons and who is seeking enforcement.” Id. (internal quotation marks omitted).
If the IRS makes the prima facie showing required
under Powell, the burden shifts to the party resisting
enforcement, whose “burden is a heavy one.” Balanced
Fin. Mgmt., Inc., 769 F.2d at 1444 (citing United States
v. Garden State National Bank, 607 F.2d 61, 68 (3d Cir.
1979)). The party resisting enforcement must establish
a defense, show a lack of good faith on the part of the
IRS, or “prove that enforcement would constitute an
abuse of the court’s process.” Id. (internal quotation
marks omitted).
A. Legitimate Purpose
The government provides a declaration from Revenue Agent Hewell stating that he served the summonses in relation to an “examination of the federal
tax liabilities” of petitioners and that, “[b]ased on
2

Additionally, the IRS is barred from issuing or enforcing
summonses under the Internal Revenue Code “with respect to
any person if a Justice Department referral is in effect with respect to such person.” 26 U.S.C. § 7602(d) (I.R.C. § 7602(d)). Petitioners do not dispute that there is no Justice Department
referral in effect in relation to them. See Docket No. 7 at 7.

App. 44
websites that appear to be associated with” petitioners,
they “are engaged in the retail sale of marijuana and
marijuana-related products in Colorado.” Docket No. 71 at 2, ¶ 4 and at 3, ¶ 11. The government argues that
its investigation of whether petitioners’ income derives
from the sale of marijuana is a legitimate purpose in
light of the bar on deductions and credits for businesses trafﬁcking in controlled substances under Internal Revenue Code § 208E. Docket No. 7 at 7-10.
Petitioners argue that “Section 280E requires
there to be a ﬁnding of illegality under federal drug
laws before it can be applied.” Docket No. 1 at 10. Petitioners claim that, because the IRS’s authority is limited to enforcing the Internal Revenue Code, the “IRS
does not have the authority to determine whether taxpayers have violated federal drug laws.” Id. at 12.
Based on this alleged lack of necessary authority, petitioners argue that the IRS’s investigation lacks a legitimate purpose.
Petitioners’ argument that the IRS lacks authority
to determine whether they are trafﬁcking in a controlled substance absent a criminal investigation has
been rejected by the Tenth Circuit. See Green Sol. Retail, Inc., 855 F.3d at 1121 (“But § 280E has no requirement that the Department of Justice conduct a
criminal investigation or obtain a conviction before
§ 280E applies.” (citing Alpenglow Botanicals, LLC v.
United States, No. 16-cv-00258-RM-CBS, 2016 WL
7856477, at *4 (D. Colo. Dec. 1, 2016)); Alpenglow Botanicals, LLC v. United States, 894 F.3d 1187, 1197
(10th Cir. 2018) (“[I]t is within the IRS’s statutory

App. 45
authority to determine, as a matter of civil tax law,
whether taxpayers have trafﬁcked in controlled substances.”); High Desert Relief, Inc. v. United States, 917
F.3d 1170, 1185 (10th Cir. 2019). While the IRS may
lack authority to criminally prosecute petitioners for
trafﬁcking in controlled substances, the IRS has authority to make determinations about whether deductions are allowable under the Internal Revenue Code,
including § 280E. Revenue Agent Hewell’s afﬁdavit establishes that the summonses are related to an investigation of petitioners’ tax liabilities, something within
the IRS’s authority. Docket No. 7-1 at 2, ¶ 4. Therefore,
the Court ﬁnds that the government has met its burden to show that its investigation of petitioners is being conducted for a legitimate purpose.
B. Relevant to the Legitimate Purpose
The government argues that the information it
seeks is relevant because it will “shed light on [petitioners’] correct income for the 2013 and 2014 tax
years by substantiating the cash ﬂows coming in and
going out of their business.” Docket No. 7 at 11. The
government claims that the information will “assist
the IRS in determining the extent of [petitioners’] business activities, whether or not [petitioners] have reported all of the income they earned in 2013 and 2014,
and whether they accurately claimed and categorized
deductions over those same years.” Docket No. 7 at 10.
Other than arguing the lack of a legitimate purpose,

App. 46
petitioners do not contest the relevance of the information sought. Docket No. 1 at 13.3
Revenue Agent Hewell’s uncontradicted declaration explains how the records the IRS seeks are relevant to determining petitioners’ tax obligations.
Docket No. 7-1 at 4-5, Ill 18-20. Therefore, the Court
ﬁnds that the government has shown the information
it seeks is relevant to its legitimate purpose of examining petitioners’ federal tax liability.
C. The IRS Does Not Already Have the Information Sought
Petitioners argue that the information sought is
unnecessary because petitioners have already produced various financial statements. Docket No. 8 at
10-11. Petitioners, however, cite no authority for the
proposition that the IRS must establish that the information sought is necessary as opposed to merely potentially relevant. Id.; United States v. Arthur Young &
Co., 465 U.S. 805, 814 (1984) (“The language ‘may be’
[in 26 U.S.C. § 7602] reﬂects Congress’ express intention to allow the IRS to obtain items of even potential
relevance to an ongoing investigation, without reference to its admissibility.” (emphasis in original)); cf.
Powell, 379 U.S. at 53 (holding that the IRS need not
3

Petitioners’ petition references “Marijuana Enforcement
Division records.” See Docket No. 1 at 13. Summonses requesting
these records are the subject of a separate lawsuit before this
Court. See The Green Solution Retail, Inc., v. United States, No.
16-mc-137-PAB.

App. 47
make a “showing of cause” to carry out an investigation). Petitioners further argue that the information
sought is already in the IRS’s possession. Docket No. 8
at 11. However, Revenue Agent Hewell’s uncontradicted declaration indicates that the banking records
provided by petitioners are incomplete and not veriﬁable, meaning that the IRS does not already possess the
records sought. Docket No. 7-1 at 4-5, ¶¶ 14-20 and at
6, ¶ 28.
D. Required Administrative Steps
In their petition, petitioners claim that the government had not shown that the IRS followed the required
administrative procedures because the IRS has not
“determined the further examination to be necessary
and has notiﬁed the taxpayer in writing to that effect.”
Docket No. 1 at 13. In its motion, however, the government provides the relevant written notiﬁcations addressed to petitioners. Docket No. 7-1 at 8-69. Revenue
Agent Hewell states that the summonses were issued
in compliance with the administrative steps required
by the Internal Revenue Code. Id. at 7, ¶ 29. In their
response, petitioners do not contest that this element
has been satisﬁed. See Docket No. 16. The Court ﬁnds
that this element is satisﬁed and, accordingly, that the
government has met its burden under Powell.
E. Lack of Good Faith or Abuse of Process
Petitioners argue that, notwithstanding the government’s prima facie case, the summonses should not

App. 48
be enforced because the IRS has not acted in good faith
in issuing the summonses. Docket No. 1 at 14. Petitioners claim that, “[s]ince the IRS is seeking to invoke a
‘crime tax’ and place the [petitioners] in criminal jeopardy under the Controlled Substances Act without any
authority to enforce the CSA, the actions by Mr. Hewell
are not in good faith and should be considered harassment.” Docket No. 8 at 11; see also Docket No. 8 at 13.
They argue that an evidentiary hearing is necessary to
determine whether the IRS acted in good faith. Docket
No. 1 at 14.
Petitioners’ claim that the IRS is seeking to place
them in criminal jeopardy is conclusory and lacks any
foundation in the record. See Alpenglow Botanicals,
LLC, 2016 WL 7856477, at *4, aff ’d, 894 F.3d 1187
(10th Cir. 2018) (rejecting the petitioners’ “attempt to
manufacture a criminal prosecution against themselves, [by] asserting that enforcement of § 280E
amounts to such a prosecution”); High Desert Relief,
Inc., 917 F.3d at 1190 (rejecting the petitioners’ argument that the IRS was “actually engaging in a backdoor enforcement of the CSA” where “[t]he evidence . . .
fails to show that the IRS was focused on criminal
prosecution in its investigation”). Moreover, as discussed above, the IRS can enforce Internal Revenue
Code § 208E even absent a criminal conviction. See
Green Sol. Retail, Inc., 855 F.3d at 1121; Alpenglow Botanicals, 894 F.3d at 1197; High Desert Relief, Inc., 917
F.3d at 1185. Thus, there is no basis to conclude that
the IRS is harassing petitioners without a proper purpose by issuing the challenged summonses. See

App. 49
Villarreal v. United States, 524 F. App’x 419, 423 (10th
Cir. 2013) (unpublished) (rejecting as conclusory a taxpayer’s claim that the IRS’s subpoena of bank records
was a “harassment campaign”). If a taxpayer “cannot
factually support a proper afﬁrmative defense, the district court should dispose of the proceeding on the papers before it and without an evidentiary hearing”
because holding such a hearing “would be a waste of
judicial time and resources.” Balanced Fin. Mgmt., Inc.,
769 F.2d at 1444. Because petitioners have not presented factual support for their claims that the IRS is
not acting in good faith, the Court ﬁnds that petitioners have not met their burden and will enforce the
summonses. Petitioners’ petition to quash the summons will be dismissed.
III. CONCLUSION
Accordingly, it is
ORDERED that petitioners’ Petition to Quash
Summonses [Docket No. 1] is DISMISSED. It is further
ORDERED that the United States’ Motion to Dismiss and Enforce Summonses [Docket No. 7] is
GRANTED. The summonses issued to Wells Fargo
Bank, NA, Verus Bank of Commerce, and Partner
Colorado Credit Union are ENFORCED pursuant to
26 U.S.C. § 7604. It is further
ORDERED that the Petitioners’ Motion for the
Court to Postpone its Ruling Until an Opinion has

App. 50
Been Issued in Appellate Case No. 16-1281 [Docket No.
15] is DENIED as moot. It is further
ORDERED that this case is closed.
DATED April 24, 2019.
BY THE COURT:
s/Philip A. Brimmer
PHILIP A. BRIMMER
Chief United States District Judge

App. 51
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer
Miscellaneous Action No. 16-mc-00162-PAB
THE GREEN SOLUTION RETAIL, INC.,
a Colorado Corporation, GREEN SOLUTION, LLC,
a Colorado Limited Liability Company, INFUZIONZ,
LLC, a Colorado Limited Liability Company, and
GREEN EARTH WELLNESS, INC., a dissolved
Colorado Corporation,
Plaintiffs,
v.
UNITED STATES OF AMERICA, through its agency
the INTERNAL REVENUE SERVICE,
Defendant.
ORDER
(Filed Feb. 12, 2018)
This matter is before the Court on plaintiffs’ Petition to Quash Summonses [Docket No. 1], the United
States’ Motion to Dismiss and Enforce Summonses
[Docket No. 8], and the Petitioners’ Motion for the
Court to Postpone its Ruling Until an Opinion has
Been Issued in Appellate Case No. 16-1281 [Docket No.
20] ﬁled by plaintiffs.

App. 52
I.

BACKGROUND

This case is one round in a series of lawsuits between companies involved in Colorado’s marijuana industry and the Internal Revenue Service (“IRS”). As
the related cases have progressed, plaintiffs’ counsel
have raised “increasingly creative” claims in opposing
the IRS’s attempts to gather information. Futurevision, LTD v. United States, No. 17-mc-00041-RBJ,
2017 WL 2799931, at *2 (D. Colo. May 25, 2017).
In one such separate proceeding, plaintiff The
Green Solution Retail, Inc. is seeking an injunction
and declaratory relief to prevent the IRS from collecting information about its business. See Green Sol. Retail, Inc. v. United States, 855 F.3d 1111, 1113 (10th Cir.
2017), petition for cert. ﬁled, No. 17-663 (Oct. 27, 2017).1
The Tenth Circuit afﬁrmed the trial court’s dismissal
of The Green Solution Retail, Inc.’s claims as barred
by the Anti Injunction Act, 26 U.S.C. § 7421 (I.R.C.
§ 7421). Green Sol. Retail, Inc., 855 F.3d at 1121. The
Tenth Circuit explained that the IRS is seeking to “determine whether it should apply 26 U.S.C. § 280E
(I.R.C. § 280E), which forbids federal tax deductions
and credits to companies trafﬁcking in a ‘controlled
substance’ as deﬁned by the Controlled Substances Act
(CSA).” Green Sol. Retail, Inc., 855 F.3d at 1113. “Although still illegal federally, the Justice Department
1

Plaintiffs moved the Court to withhold ruling on their petition until the Tenth Circuit decided Green Sol. Retail, Inc.’s appeal, No. 16-1281, but the Tenth Circuit has now decided that
appeal. Accordingly, the Court will deny plaintiff’s motion to withhold a ruling as moot. See Docket No. 20.

App. 53
has declined to enforce [the CSA] when a person or
company buys or sells marijuana in accordance with
state law.” Id. at 1114. “But while ‘today prosecutors
will almost always overlook federal marijuana distribution crimes in Colorado,’ it does not mean the ‘tax
man’ is willing to turn a blind eye.” Id. (quoting Feinberg v. C.I.R., 808 F.3d 813, 814 (10th Cir. 2015)). The
court also stated that the IRS has the authority to apply § 280E even in the absence of a criminal conviction.
Id. at 1121.
As background to both that proceeding and this
one, the IRS is conducting a civil audit of plaintiffs’ tax
liability for ﬁscal years 2013 and 2014. Docket No. 1 at
4, ¶ 12; Docket No. 1-2; Docket No. 8-1 at 2, ¶¶ 5-7. In
relation to the audit, David Hewell, an IRS revenue
agent, informed plaintiffs that his department had
made a determination that plaintiffs were trafﬁcking
in a controlled substance and Mr. Hewell sought records to establish the extent of plaintiffs’ activities.
Docket No. 1 at 4, ¶¶ 13-14; Docket No. 81 at 1, ¶ 1.
After plaintiffs declined to provide their Marijuana
Enforcement Tracking Reporting and Compliance
(“METRC”) records, the IRS issued summonses to the
Colorado Department of Revenue’s Marijuana Enforcement Division seeking plaintiffs’ METRC records
and inventory information. Docket No. 1 at 4, ¶ 14;
Docket No. 1-1. Plaintiffs now seek to quash those summonses, Docket No. 1, and the government is seeking
to enforce the summonses. Docket No. 8.

App. 54
II.

DISCUSSION

In order to enforce a summons, the IRS must show
that the “investigation will be conducted pursuant to a
legitimate purpose, that the inquiry may be relevant to
the purpose, that the information sought is not already
within the Commissioner’s possession, and that the
administrative steps required by the Code have been
followed—in particular, that the ‘Secretary or his delegate,’ after investigation, has determined the further
examination to be necessary and has notiﬁed the taxpayer in writing to that effect.” United States v. Powell,
379 U.S. 48, 57-58 (1964).2 The IRS’s burden “is a slight
one because the statute must be read broadly in order
to ensure that the enforcement powers of the IRS are
not unduly restricted.” United States v. Balanced Fin.
Mgmt., Inc., 769 F.2d 1440, 1443 (10th Cir. 1985) (citation omitted). “The requisite showing is generally
made by afﬁdavit of the agent who issued the summons and who is seeking enforcement.” Id. (internal
quotation marks omitted).
If the IRS makes the prima facie showing required
under Powell, the burden shifts to the party resisting
enforcement, whose “burden is a heavy one.” Balanced
Fin. Mgmt., Inc., 769 F.2d at 1444 (citing United States
v. Garden State National Bank, 607 F.2d 61, 68 (3d Cir.
2

Additionally, the IRS is barred from issuing or enforcing
summonses under the Internal Revenue Code “with respect to
any person if a Justice Department referral is in effect with respect to such person.” 26 U.S.C. § 7602(d) (I.R.C. § 7602(d)).
Plaintiffs do not dispute that there is no Justice Department referral in effect in relation to them. See Docket No. 8 at 7.

App. 55
1979)). The party resisting enforcement must establish
a defense, show a lack of good faith on the part of the
IRS, or “prove that enforcement would constitute an
abuse of the court’s process.” Id. (internal quotation
marks omitted).
A. Legitimate Purpose
The government provides a declaration from Revenue Agent Hewell stating that he served the summonses in relation to an “examination of the federal
tax liabilities” of plaintiffs and that, “[b]ased on websites that appear to be associated with” plaintiffs, they
“are engaged in the retail sale of marijuana and marijuana-related products in Colorado.” Docket No. 8-1 at
2, ¶ 4 and at 3, ¶ 9. The government argues that its investigation of whether plaintiffs’ income derives from
sale of marijuana is a legitimate purpose in light of the
bar on deductions and credits for businesses trafﬁcking in controlled substances under Internal Revenue
Code § 208E. Docket No. 8 at 8-9.
Plaintiffs argue that “Section 280E requires there
to be a ﬁnding of illegality under federal drug laws before it can be applied.” Docket No. 1 at 9. Plaintiffs
claim that, because the IRS’s authority is limited to enforcing the Internal Revenue Code, the “IRS does not
have the authority to determine whether taxpayers
have violated federal drug laws.” Id. at 11. Based on
this alleged lack of necessary authority, plaintiffs argue that the IRS’s investigation lacks a legitimate purpose.

App. 56
Plaintiffs’ argument that the IRS lacks authority
to determine whether they are trafﬁcking in a controlled substance absent a criminal investigation is unavailing because it has been rejected by the Tenth
Circuit. See Green Sol. Retail, Inc., 855 F.3d at 1121
(“But § 280E has no requirement that the Department
of Justice conduct a criminal investigation or obtain a
conviction before § 280E applies.” (citing Alpenglow
Botanicals, LLC v. United States, No. 16-cv-00258-RMCBS, 2016 WL 7856477, at *4 (D. Colo. Dec. 1, 2016))).
This Court is bound by that decision. Futurevision,
LTD, No. 2017 WL 2799931, at *2. While the IRS may
lack authority to criminally prosecute plaintiffs for
trafﬁcking in controlled substances, the IRS has authority to make determinations about whether deductions are allowable under the Internal Revenue Code,
including § 280E. Revenue Agent Hewell’s afﬁdavit establishes that the summonses are related to an investigation of plaintiffs’ tax liabilities, something within
the IRS’s authority. Docket No. 8-1 at 2, ¶ 4. Therefore,
the Court ﬁnds that the government has met its burden to show that its investigation of plaintiffs is being
conducted for a legitimate purpose.
B. Relevant to the Legitimate Purpose
The government argues that the information it
seeks is relevant because it will “shed light on [plaintiffs’] correct income for the 2013 and 2014 tax years
by substantiating their sales and inventory ﬁgures.”
Docket No. 8 at 11-12. The government claims that “inventory ﬁgures are particularly critical in audits of

App. 57
marijuana businesses, which, in light of Section 280E,
are only allowed to offset gross receipts with the cost
of goods sold” and that, without such information, “exact sales may be difﬁcult to track due to the cash-based
nature of the industry.” Id. at 12. Other than arguing
the lack of a legitimate purpose, plaintiffs do not contest the relevance of the information sought. Docket
No. 1 at 11-12.
Revenue Agent Hewell’s uncontradicted declaration explains how the records he seeks are relevant to
determining plaintiffs’ tax obligations. Docket No. 8-1
at 4, ¶¶ 16-18. Therefore, the Court ﬁnds that the government has shown the information it seeks is relevant to its legitimate purpose of examining plaintiffs’
federal tax liability.
C. The IRS Does Not Already Have the Information Sought
Plaintiffs do not dispute that the IRS does not already possess the information it seeks by way of the
challenged subpoenas. Docket No. 16 at 13-14. Instead,
plaintiffs argue that the information sought is unnecessary because plaintiffs have already produced various ﬁnancial statements. Id. Plaintiffs, however, cite no
authority for the proposition that the IRS must establish that the information sought is necessary as opposed to merely potentially relevant. Id.; United States
v. Arthur Young & Co., 465 U.S. 805, 814 (1984) (“The
language ‘may be’ [in 26 U.S.C. § 7602] reﬂects Congress’ express intention to allow the IRS to obtain

App. 58
items of even potential relevance to an ongoing investigation, without reference to its admissibility.” (emphasis in original)); cf. Powell, 379 U.S. at 53 (holding
that the IRS need not make a “showing of cause” to
carry out an investigation). Revenue Agent Hewell’s
uncontradicted declaration shows that the IRS does
not already possess the records sought, which, as discussed above, are relevant to its legitimate purpose.
Docket No. 8-1 at 3, ¶¶ 13-14 and at 5, ¶¶ 22-23.
D. Required Administrative Steps
In their petition, plaintiffs claim that the government had not shown that the IRS followed the required
administrative procedures because “[t]here is nothing
in the record to show that the IRS determined that further examination was necessary and that notiﬁed the
taxpayer in writing to that effect.” Docket No. 1 at 12.
In its motion, however, the government provides the
relevant written notiﬁcations addressed to plaintiffs,
and Revenue Agent Hewell states that the summonses
were issued in compliance with the administrative
steps required by the Internal Revenue Code. Docket
No. 8-1 at 5, ¶ 25 and at 7-22. Plaintiffs do not contest
that this element is satisﬁed in their response. See
Docket No. 16. The Court ﬁnds that this element is satisﬁed and, accordingly, that the government has met
its burden under Powell.

App. 59
E. Lack of Good Faith or Abuse of Process
Plaintiffs argue that, notwithstanding the government’s prima facie case, the summonses should not be
enforced because the IRS has not acted in good faith in
issuing the summonses. Docket No. 1 at 12. Plaintiffs
claim that, “[s]ince the IRS is seeking to invoke a ‘crime
tax’ and place the [plaintiffs] in criminal jeopardy under the Controlled Substances Act without any authority to enforce the CSA, the actions by Mr. Hewell are
not in good faith and should be considered harassment.” Docket No. 16 at 14; see also Docket No. 16 at
11. They argue that an evidentiary hearing is necessary to determine whether the IRS acted in good faith.
Docket No. 1 at 12.
Plaintiffs’ claim that the IRS is seeking to place
them in criminal jeopardy is conclusory and lacks any
foundation in the record. See Alpenglow Botanicals,
LLC, 2016 WL 7856477, at *4 (rejecting the plaintiffs’
“attempt to manufacture a criminal prosecution
against themselves, [by] asserting that enforcement of
§ 280E amounts to such a prosecution”). Moreover, as
discussed above, the IRS can enforce Internal Revenue
Code § 208E even absent a criminal conviction. See
Green Sol. Retail, Inc., 855 F.3d at 1121. Thus, there is
no basis to conclude that the IRS is harassing plaintiffs
without a proper purpose by issuing the challenged
summonses. See Villarreal v. United States, 524 F.
App’x 419, 423 (10th Cir. 2013) (unpublished) (rejecting as conclusory a taxpayer’s claim that the IRS’s subpoena of bank records was a “harassment campaign”).
If a taxpayer cannot “cannot factually support a proper

App. 60
affirmative defense, the district court should dispose
of the proceeding on the papers before it and without
an evidentiary hearing” because holding such a hearing “would be a waste of judicial time and resources.”
Balanced Fin. Mgmt., Inc., 769 F.2d at 1444. Because
plaintiffs have not presented factual support for their
claims that the IRS is not acting in good faith, the
Court ﬁnds that plaintiffs have not met their burden
and will enforce the summonses. Plaintiffs’ petition to
quash the summons will be dismissed.
III. CONCLUSION
Accordingly, it is
ORDERED that plaintiffs’ Petition to Quash
Summonses [Docket No. 1] is DISMISSED. It is further
ORDERED that the United States’ Motion to
Dismiss and Enforce Summonses [Docket No. 8] is
GRANTED. The summonses issued to the Colorado
Department of Revenue’s Marijuana Enforcement Division are ENFORCED pursuant to 26 U.S.C. § 7604.
It is further
ORDERED that the Petitioners’ Motion for the
Court to Postpone its Ruling Until an Opinion has
Been Issued in Appellate Case No. 16-1281 [Docket No.
20] ﬁled by plaintiffs is DENIED as moot. It is further
ORDERED that this case is closed.

App. 61
DATED February 12, 2018.
BY THE COURT:
s/Philip A. Brimmer
PHILIP A. BRIMMER
United States District Judge

App. 62
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer
Miscellaneous Action No. 16-mc-00137-PAB
THE GREEN SOLUTION RETAIL, INC.,
a Colorado Corporation, GREEN SOLUTION, LLC,
a Colorado Limited Liability Company, INFUZIONZ,
LLC, a Colorado Limited Liability Company,
and GREEN EARTH WELLNESS, INC.,
a dissolved Colorado Corporation,
Petitioners,
v.
UNITED STATES OF AMERICA, through
its agency the Internal Revenue Service,
Respondent.
ORDER
(Filed Apr. 24, 2019)
This matter is before the Court on petitioners’ Motion to Alter or Amend Judgment [Docket No. 33]. Pursuant to Fed. R. Civ. P 59(e), petitioners seek to alter
or amend the Court’s February 12, 2018 Order [Docket
No. 32] dismissing petitioners’ petition to quash summonses and closing the case.

App. 63
I.

BACKGROUND

This case is one of a series of lawsuits between the
Internal Revenue Service (“IRS”) and companies involved in Colorado’s marijuana industry. Docket No. 32
at 1. The IRS is conducting a civil audit of petitioners’
tax liability for ﬁscal years 2013 and 2014. Docket No.
1 at 4, ¶ 12; Docket No. 1-2; Docket No. 8-1 at 2, Ill 5-7.
Petitioners, who are all involved in the marijuana industry, seek to prevent the IRS from collecting information about their business activities. Under 26 U.S.C.
§ 280E (I.R.C. § 280E), companies who trafﬁc in a “controlled substance” such as marijuana are forbidden
from taking federal tax deductions and credits. In relation to the audit, David Hewell, an IRS revenue
agent, informed petitioners that his department had
made a determination that petitioners were trafﬁcking
in a controlled substance, and Mr. Hewell sought records to establish the extent of petitioners’ activities.
Docket No. 1 at 4, ¶¶ 13-14; Docket No. 8-1 at 1, ¶ 1.
After petitioners declined to provide their Marijuana
Enforcement Tracking Reporting and Compliance
(“METRC”) records, the IRS issued summonses to the
Colorado Department of Revenue’s Marijuana Enforcement Division seeking petitioners’ METRC records and inventory information. Docket No. 1 at 4,
¶ 14; Docket No. 1-1. Petitioners sought to quash those
summonses, and the government sought to enforce the
summonses. Docket Nos. 1, 8.
In a separate proceeding, petitioner The Green Solution Retail, Inc. (“Green Solution”) sought similar relief against the IRS. See Green Sol. Retail, Inc. v. United

App. 64
States, 855 F.3d 1111, 1113 (10th Cir. 2017) (“Green Solution”). The Tenth Circuit afﬁrmed the trial court’s
dismissal of Green Solution’s claims as barred by the
Anti-Injunction Act, 26 U.S.C. § 7421 (I.R.C. § 7421).
The Tenth Circuit rejected Green Solution’s argument
that the IRS acted outside its authority, concluding
that “the IRS’s obligation to determine whether and
when to deny deductions under § 280E[ ] falls squarely
within its authority under the Tax Code.” Green Solution, 855 F.3d at 1121.
II.

LEGAL STANDARD

“A motion to alter or amend a judgment must be
ﬁled no later than 28 days after the entry of the judgment.” Fed. R. Civ. P. 59(e). “Grounds warranting a motion to alter or amend the judgment pursuant to Rule
59(e) include (1) an intervening change in the controlling law, (2) new evidence previously unavailable, and
(3) the need to correct clear error or prevent manifest
injustice.” Alpenglow Botanicals, LLC v. United States,
894 F.3d 1187, 1203 (10th Cir. 2018) (quoting Servants
of the Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir.
2000)). A Rule 59(e) motion is appropriate where “the
court has misapprehended the facts, a party’s position,
or the controlling law,” but not to “revisit issues already
addressed or advance arguments that could have been
raised in prior brieﬁng.” Id.
Petitioners ﬁled their Motion to Alter or Amend
Judgment [Docket No. 33] on March 12, 2018, within

App. 65
28 days of the entry of the order closing the case on
February 12, 2018.
III. DISCUSSION
Petitioners raise three arguments in their Rule
59(e) motion for why altering or amending the judgment is warranted. See Docket No. 33. First, petitioners argue that the Court erred in applying the Tenth
Circuit’s ruling in Green Solution to this case. Id. at 23. Second, petitioners argue that the Court improperly
criticized petitioners’ ﬁling of petitions to quash summonses because the petitions are necessary to protect
petitioners’ right to obtain absolute immunity from the
IRS. Third, petitioners argue that the government has
“conceded” that METRC information is not relevant to
a determination of income and expenses. Id. at 5-6.
A. Application of the Green Solution Ruling
Petitioners’ ﬁrst argument is that the Court’s application of the ruling in Green Solution to this case is
clear error. They argue that the “District Court erred
in its assertion that the Court of Appeals in [Green Solution] gave the IRS authority to administratively investigate and determine violations of federal criminal
drug laws.” See Docket No. 33 at 2-3. Tellingly, petitioners fail to cite anywhere in the Court’s order where the
court interpreted Green Solution to give the IRS authority to “determine violations of federal criminal
drug laws.” Instead, the Court noted that

App. 66
[w]hile the IRS may lack authority to criminally prosecute petitioners for trafﬁcking in
controlled substances, the IRS has authority
to make determinations about whether deductions are allowable under the Internal
Revenue Code, including § 280E. Revenue
Agent Hewell’s afﬁdavit establishes that the
summonses are related to an investigation of
petitioners’ tax liabilities, something within
the IRS’s authority.
Docket No. 32 at 5. Petitioners again try to suggest
that, because the IRS made a preliminary conclusion
that a company is engaging in the marijuana business,
the IRS is acting outside its scope of authority in issuing summonses pursuant to § 280E. However, that preliminary determination is not a criminal investigation.
Petitioners’ argument was rejected in Green Solution,
where the Tenth Circuit concluded unequivocally that
“the IRS’s obligation to determine whether and when
to deny deductions under § 280E0 falls squarely within
its authority under the Tax Code.” See Green Solution,
855 F.3d at 1121. In a recent case, the Tenth Circuit
reafﬁrmed that holding, stating that “it is within the
IRS’s statutory authority to determine, as a matter of
civil tax law, whether taxpayers have trafﬁcked in controlled substances.” See Alpenglow Botanicals, 894 F.3d
at 1197; see also High Desert Relief, Inc. v. United
States, 917 F.3d 1170, 1186-87 (10th Cir. 2019).

App. 67
B. Absolute Immunity
Second, petitioners note that, in its February 12,
2018 order, the Court stated that petitioners’ counsel
have raised “increasingly creative” claims. See Docket
No. 32 at 1 (quoting Futurevision, LTD v. United States,
No. 17-mc-00041-RBJ, 2017 WL 2799931, at *2 (D.
Colo. May 25, 2017)). Petitioners use the Court’s observation to suggest that petitioners and other similar
taxpayers need to make a variety of arguments to protect themselves, given that
[i]f Congress delegates its tax power to allow
the IRS to investigate inherently criminal activity for tax administration purposes, it must
provide the following constitutional protections: 1. Prohibit the IRS from sharing the
incriminating information with law enforcement; or 2. Provide absolute immunity from
prosecution.
See Docket No. 33 at 5 (emphasis removed). First, the
Court cannot discern what error the petitioners allege
the Court made, let alone how it is “clear error or manifest injustice” that would warrant altering or amending the judgment. See Alpenglow Botanicals, 894 F.3d
at 1203. Second, petitioners raise this point for the ﬁrst
time in this motion. A Rule 59(e) motion is not the
appropriate forum to “advance arguments that could
have been raised in prior briefing.” See Alpenglow

App. 68
Botanicals, 894 F.3d at 1203. Therefore, petitioners’
second argument also fails.1
C. The METRC Information
Finally, petitioners argue that the government has
changed its position with regard to the information
sought in the summonses. See Docket No. 33 at 5-6. Petitioners note that, in a declaration attached to the
IRS’s motion to dismiss [Docket No. 8-1], the IRS
stated that the METRC system is useful for determining whether a marijuana business reported its gross
receipts and deductions properly, but that “in recent
audit reports” the IRS now takes the position that
“METRC data does not track purchases other than
tracking the amount of marijuana product transferred
in, this report only tracks the amounts, not the costs;
therefore, there are no veriﬁcation in METRC’s to support any [cost of goods sold].”2 See Docket No. 33-1. In
light of this alleged change of position, petitioners
claim that “there is a question of fact with respect to
the relevance of the information being sought.” See
Docket No. 33 at 6.
This argument is without merit. First, the exhibit
that contains the claimed change of position does not
1

Even if this argument were properly before the Court, this
argument has been explicitly rejected by the Tenth Circuit. See
High Desert Relief, 917 F.3d at 1188-89.
2
All marijuana businesses in Colorado must track their inventory of marijuana plants through the state’s METRC system,
which is overseen by the state Marijuana Enforcement Division.
See Docket No. 8 at 4.

App. 69
meet the burden for newly discovered evidence under
Rule 59(e). “Rule 59(e) motions may be based either on
(1) evidence arising after the initial ruling (in which
event the party’s diligence in seeking the evidence is
obviously not a consideration) or (2) evidence available
but not discovered at the time of the initial ruling (in
which event the moving party must show it diligently
sought the evidence earlier).” See Bell v. Bd. of Cty.
Comm’rs of Jefferson Cty., 451 F.3d 1097, 1102 (10th
Cir. 2006). It is petitioners’ burden to demonstrate
which scenario applies. See Anderson v. United States,
762 F.3d 787, 794 (8th Cir. 2014). Petitioners do not offer a sufﬁcient explanation of where they discovered
the document or why they did not discover the document before the Court’s ruling, only stating that “[t]his
was information that was received by the undersigned
after this court’s order dismissing the instant case.”
See Docket 33 at 6.
Even if petitioners had met their burden for relying on newly discovered evidence, the evidence does
not support altering the judgment. The document in
question appears to be a lead sheet completed by an
individual IRS agent. As the government points out,
the IRS articulates its positions through formal statements of policy, not through statements of individual
agents. See Conn. Gen. Life Ins. Co. v. Comm’r of Internal Revenue, 177 F.3d 136, 145 (3rd Cir. 1999). Therefore, this exhibit does not support the conclusion that
the government has changed its position with regard
to METRC.

App. 70
Finally, even if the exhibit is taken as a concession
that METRC information does not directly verify cost
of goods sold, there is no evidence supporting petitioners’ conclusion that the information is “not relevant to
a determination of income and expenses.” See Docket
No. 33 at 6. In his Declaration, Revenue Agent Hewell
explains that METRC information is “particularly valuable during an audit” because it “substantiates (or
undermines) the information reported on [a marijuana
business’s] tax returns.” See Docket No. 8-1 at 4, ¶¶ 1617. As petitioners have offered no new evidence that
would cause the Court to alter or amend the judgment,
this argument also fails.
IV. CONCLUSION
As none of petitioners’ arguments demonstrate an
intervening change in the controlling law, new evidence previously unavailable, or the need to correct
clear error or prevent manifest injustice, the Court will
deny petitioners’ Motion to Alter or Amend Judgment
[Docket No. 33]. See Servants of the Paraclete, 204 F.3d
at 1012.
Accordingly, it is
ORDERED that petitioners’ Motion to Alter or
Amend Judgment [Docket No. 33] is DENIED.

App. 71
DATED April 24, 2019.
BY THE COURT:
s/ Philip A. Brimmer
PHILIP A. BRIMMER
Chief United States
District Judge

App. 72
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer
Miscellaneous Action No. 18-mc-00031-PAB
MEDICINAL WELLNESS CENTER, LLC,
a Colorado limited liability company, MEDICINAL
OASIS, LLC, a Colorado limited liability company,
MICHAEL ARAGON, an individual, JUDY ARAGON,
an individual, and STEVEN HICKOX, an individual,
Petitioners,
v.
UNITED STATES OF AMERICA, through
its agency the Internal Revenue Service,
Respondent.
ORDER
(Filed Apr. 24, 2019)
This matter is before the Court on petitioners’
Amended Petition to Quash Summonses [Docket No.
12] and the United States’ Motion to Dismiss Amended
Petition and Enforce Summonses [Docket No. 15].
I.

BACKGROUND

This case is an extension of a dispute between a
group of petitioners and the IRS over their tax audits.
See Medicinal Wellness Center, LLC v. United States,
No. 17-mc-00170-PAB (“Medicinal Wellness Center I”).

App. 73
The Internal Revenue Service (“IRS”) is conducting a
civil audit of petitioners Medicinal Wellness Center,
LLC, and Medicinal Oasis, LLC’s tax liability for ﬁscal
years 2014, 2015, and 2016. Docket No. 15-1 at 2, ¶ 4.
Petitioners Michael Aragon, Judy Aragon, and Steven
Hickox owned these two entities in those years. Id. Because the two entities elected to be treated as passthrough entities for tax purposes, the results of an
audit could affect their owners’ income taxes. As a
result, the IRS opened civil audits of the 2014, 2015,
and 2016 returns for the Aragons and Mr. Hickox. Id.
In Medicinal Wellness Center I, Tyler Pringle, an IRS
revenue agent, informed petitioners that his department had made a determination that petitioners were
trafﬁcking in a controlled substance and that he
sought records to establish the extent of petitioners’
activities. Medicinal Wellness Center I, Docket No. 1 at
4 and Docket No. 3-1 at 3, ¶ 12. In response to Revenue
Agent Pringle’s requests, petitioners provided only
“minimal, incomplete, and redacted financial and
other records.” Id., Docket No. 3-1 at 4, ¶ 13. Revenue
Agent Pringle issued summonses to Colorado’s Marijuana Enforcement Division (“MED”), seeking “books,
records, papers, and other data, including METRC
[Marijuana Enforcement Tracking Reporting and Compliance] annual gross sales reports, transfer reports,
annual harvest reports, and monthly plants inventory
reports.” Id. at 4-5, ¶ 17. While Medicinal Wellness
Center I was pending before this Court, the IRS expanded its audit to include the 2016 tax year and issued additional summonses to the MED for 2016.

App. 74
Docket No. 15-1 at 3, ¶ 9.1 Petitioners now seek to
quash those summonses, Docket No. 12, and the government seeks to enforce the summonses. Docket No.
15.
II.

DISCUSSION

In order to enforce a summons, the IRS must show
that the “investigation will be conducted pursuant to a
legitimate purpose, that the inquiry may be relevant to
the purpose, that the information sought is not already
within the [IRS] Commissioner’s possession, and that
the administrative steps required by the [Tax] Code
have been followed—in particular, that the ‘Secretary
[of the Treasury] or his delegate,’ after investigation,
has determined the further examination to be necessary and has notiﬁed the taxpayer in writing to that
effect.” United States v. Powell, 379 U.S. 48, 57-58
(1964).2 The IRS’s burden “is a slight one because the
statute must be read broadly in order to ensure that
the enforcement powers of the IRS are not unduly restricted.” United States v. Balanced Fin. Mgmt., Inc.,
769 F.2d 1440, 1443 (10th Cir. 1985) (citation omitted).
1

The Court issues its order in Medicinal Wellness Center I,
denying petitioners’ petition to quash and granting the government’s motion to dismiss, simultaneously with this order.
2
Additionally, the IRS is barred from issuing or enforcing
summonses under the Internal Revenue Code “with respect to
any person if a Justice Department referral is in effect with respect to such person.” 26 U.S.C. § 7602(d) (I.R.C. § 7602(d)). Petitioners do not dispute Revenue Agent Pringle’s declaration that
there is no Justice Department referral in effect in relation to
them. See Docket No. 15-1 at 5, 7, ¶¶ 22, 30.

App. 75
“The requisite showing is generally made by afﬁdavit
of the agent who issued the summons and who is seeking enforcement.” Id. (internal quotation marks omitted).3
If the IRS makes the prima facie showing required
under Powell, the burden shifts to the party resisting
enforcement, whose “burden is a heavy one.” Balanced
Fin. Mgmt., Inc., 769 F.2d at 1444 (citing United States
v. Garden State National Bank, 607 F.2d 61, 68 (3d Cir.
1979)). The party resisting enforcement must establish
a defense, show a lack of good faith on the part of the
IRS, or “prove that enforcement would constitute an
abuse of the court’s process.” Id. (internal quotation
marks omitted).
A. Legitimate Purpose
The government provides a declaration from
Revenue Agent Pringle stating that he served the
3

Petitioners assert that the Court cannot consider the declaration from Revenue Agent Pringle without converting their
motion to dismiss into a motion for summary judgment. Docket
No. 16 at 2. When, in a summons enforcement proceeding, the
issue is whether the government presented a prima facie case under Powell, the traditional summary judgment standard applies.
High Desert Relief, Inc. v. United States, 917 F.3d 1170, 1180
(10th Cir. 2019) (applying Jewell v. United States, 749 F.3d 1295,
1297 n.1 (10th Cir. 2014)). However, a taxpayer must factually
oppose the government’s allegations by afﬁdavit or present a
proper afﬁrmative defense to defeat the government’s prima facie
case. Id. at 1183. “The traditional summary-judgment standard
[does] not permit [petitioners] to rest on conclusory statements in
the summary judgment record.” Id. at 1181.

App. 76
summonses in relation to “examinations of the federal
tax liabilities” of petitioners and that petitioners operate at least one marijuana retail dispensary and two
marijuana grow facilities, where they sell medicinal
and recreational marijuana. Docket No. 15-1 at 2, ¶ 46. The government argues that its investigation of
whether petitioners’ income derives from the sale of
marijuana is a legitimate purpose in light of the bar on
deductions and credits for businesses trafﬁcking in
controlled substances under Internal Revenue Code
§ 280E. Docket No. 15 at 7.
Petitioners argue that the summonses do not have
a legitimate purpose because Congress did not empower the IRS to investigate violations of federal criminal drug laws. Docket No. 12 at 16-18. The Court
rejects this argument. See Medicinal Wellness Center I
at 4-5; Green Sol. Retail, Inc. v. United States, 855 F.3d
1111, 1121 (10th Cir. 2017) (“[I.R.C.] § 280E has no requirement that the Department of Justice conduct a
criminal investigation or obtain a conviction before
§ 280E applies.”). The Court also rejects petitioners’ argument that § 280E raises Fifth Amendment issues requiring the IRS to grant petitioners absolute immunity
before enforcing the summonses. See Medicinal Wellness Center I at 5-6. Therefore, the Court ﬁnds that the
government has met its burden to show that its investigation of petitioners is being conducted for a legitimate purpose.

App. 77
B. Relevant to the Legitimate Purpose
The government argues that the information it
seeks is relevant because it will “shed light on [petitioners’] correct income . . . by substantiating, or contradicting sales and inventory ﬁgures.” Docket No. 15
at 8. Revenue Agent Pringle’s declaration explains that
the information it seeks “can establish whether a
marijuana business properly reported its gross receipts and allowed deductions for cost of goods sold.”
Docket No. 15-1 at 4, ¶ 13. Petitioners argue that “the
[g]overnment has already conceded that METRC information is not relevant to a determination of income
and expenses.” Docket No. 12 at 18. In support of this
conclusion, petitioners point to what appears to be a
lead sheet completed by an individual IRS agent. See
Docket No. 1225. As the government points out, the
IRS articulates its positions through formal statements of policy, not through statements of individual
agents. See Conn. Gen. Life Ins. Co. v. Comm’r of Internal Revenue, 177 F.3d 136, 145 (3d Cir. 1999). Even if
the exhibit is taken as a concession that METRC information does not directly verify cost of goods sold, there
is no evidence supporting petitioners’ conclusion that
the information is “not relevant to a determination of
income and expenses.” See Docket No. 12 at 18. In his
Declaration, Revenue Agent Pringle explains that this
information is “particularly valuable during an audit”
because it “can establish whether a marijuana business properly reported its gross receipts and allowed
deductions for cost of goods sold.” See Docket No. 15-1
at 4, Ill 13-14. The Court ﬁnds that the government has

App. 78
shown the information it seeks is relevant to its legitimate purpose of examining petitioners’ federal tax liability.
C. The IRS Does Not Already Have the Information Sought
Revenue Agent Pringle states that the IRS did not
possess the information sought when he requested the
summonses and that the MED has not produced the
requested information. Docket No. 15-1 at 5-6, ¶¶ 1819, 26-27. As petitioners do not challenge the government’s prima facie showing on this factor, the Court
ﬁnds that the government has shown that the IRS does
not already have the information sought.
D. Required Administrative Steps
In its motion, the government provides the relevant written notices of audit addressed to petitioners.
Docket No. 15-2 at 7-8. Further, the government provides copies of the document requests, the summonses,
and certiﬁcations that Revenue Agent Pringle served
the summonses and served notice on the taxpayers.
Docket No. 15-2. Finally, Revenue Agent Pringle states
that the summonses were issued in compliance with
the administrative steps required by the Internal Revenue Code. Docket No. 15-1 at 5-6, ¶ 21, 29. Petitioners
do not contest that this element is satisﬁed. See Docket
No. 7. The Court ﬁnds that this element is satisﬁed
and, accordingly, that the government has met its burden under Powell.

App. 79
E. Lack of Good Faith or Abuse of Process
Petitioners argue that, notwithstanding the government’s prima facie case, the summonses should not
be enforced because the IRS has not acted in good faith
in issuing the summonses. Docket No. 12 at 18-20. The
Court rejects this argument for the reasons set forth in
Medicinal Wellness Center I. See Medicinal Wellness
Center I at 9-10.
Petitioners also argue that (1) enforcing the summonses would violate the petitioners’ Fourth Amendment rights; (2) the summonses are unreasonable and
unenforceable because they are overbroad; (3) the summonses require the commission of a state law crime;
(4) the summonses force the MED to prepare documents that do not exist; and (5) the requested transfer
reports impermissibly seek the identity of other thirdparty taxpayers. Docket No. 12 at 21-34. With the
exception of argument (5), the Court considered and
rejected these arg uments in Medicinal Wellness Center I. See Medicinal Wellness Center I at 10-13. For the
reasons set forth in that order, the Court rejects arguments (1) through (4) in this case. See id.
Petitioners’ new argument is that the summonsed
“Transfer Reports” from the MED “appear[ ] to be requesting the identity of third parties who may have
dealt with the [p]etitioners in the past.” Docket No. 12
at 34. Petitioners allege that the summonses are actually “John Doe” summonses pursuant to 26 U.S.C.
§ 7609(f ), and that the IRS has not shown that the
summonses are warranted under the statutory factors.

App. 80
Id. The Court ﬁnds this argument misplaced. As the
government and other courts in this district have
pointed out, § 7609(f ) “only applies when the summons
does not identify the person with respect to whose liability the summons is issued.” See Riﬂe Remedies, LLC
v. United States, No. 17-mc-00062-RM, 2017 WL
6021421 at *3 (D. Colo. Oct. 26, 2017). Further, Revenue Agent Pringle explains that the purpose of transfer reports is to show “the contents and timing of
transferred inventory,” not who the recipients of the
inventory are. See Docket No. 15-1 at 5, ¶ 15.
If a taxpayer “cannot factually support a proper
afﬁrmative defense, the district court should dispose of
the proceeding on the papers before it and without an
evidentiary hearing” because holding such a hearing
“would be a waste of judicial time and resources.” Balanced Fin. Mgmt., 769 F.2d at 1444. Because petitioners have not presented factual support for their claims
that the IRS is not acting in good faith or is abusing
the process, the Court ﬁnds that petitioners have not
met their burden and will enforce the summonses.
Therefore, petitioners’ petition to quash the summonses will be dismissed.
III. CONCLUSION
Accordingly, it is
ORDERED that petitioners’ Amended Petition to
Quash Summonses [Docket No. 12] is DISMISSED. It
is further

App. 81
ORDERED that the United States’ Motion to Dismiss Amended Petition and Enforce Summonses
[Docket No. 15] is GRANTED. The summonses issued
to the Colorado Marijuana Enforcement Division are
ENFORCED pursuant to 26 U.S.C. § 7604. It is further
ORDERED that this case is closed.
DATED April 24, 2019.
BY THE COURT:
s/ Philip A. Brimmer
PHILIP A. BRIMMER
Chief United States
District Judge

App. 82
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer
Miscellaneous Action No. 17-mc-00170-PAB
MEDICINAL WELLNESS CENTER, LLC,
a Colorado Limited Liability Company,
MEDICINAL OASIS, LLC, a dissolved Colorado
Limited Liability Company,
MICHAEL ARAGON,
JUDY ARAGON, and
STEVEN HICKOX,
Petitioners,
v.
UNITED STATES OF AMERICA, through
its agency the Internal Revenue Service,
Defendant.
ORDER
(Filed Apr. 24, 2019)
This matter is before the Court on petitioners’ Petition to Quash Sum monses [Docket No. 1] and the
United States’ Motion to Dismiss Petition and Enforce
Summonses [Docket No. 3].
I.

BACKGROUND

The Internal Revenue Service (“IRS”) is conducting a civil audit of petitioners Medicinal Wellness

App. 83
Center, LLC, and Medicinal Oasis, LLC’s tax liability
for ﬁscal years 2014 and 2015. Petitioners Michael
Aragon, Judy Aragon, and Steven Hickox owned these
two entities in 2014 and 2015. Docket 3-1 at 2, ¶ 7. Because the two entities elected to be treated as passthrough entities for tax purposes, the results of an
audit could affect their owners’ income taxes. As a result, the IRS opened civil audits of the 2014 and 2015
returns for the Aragons and Mr. Hickox. Id. at 3, ¶ 11.
In relation to the audit, Tyler Pringle, an IRS revenue
agent, informed petitioners that his department had
made a determination that petitioners were trafﬁcking
in a controlled substance and that Revenue Agent
Pringle sought records to establish the extent of petitioners’ activities. Docket No. 1 at 3; Docket No. 3-1 at
3, ¶ 12. In response to Revenue Agent Pringle’s requests, petitioners provided only “minimal, incomplete,
and redacted ﬁnancial and other records.” Docket No.
3-1 at 4, ¶ 13. Revenue Agent Pringle issued summonses to Colorado’s Marijuana Enforcement Division
(“MED”), seeking “books, records, papers, and other
data, including METRC [Marijuana Enforcement
Tracking Reporting and Compliance] annual gross
sales reports, transfer reports, annual harvest reports,
and monthly plants inventory reports.” Id. at 4-5,
¶ 17. Petitioners now seek to quash those summonses,
Docket No. 1, and the government seeks to enforce the
summonses. Docket No. 3.1
1

While this lawsuit was pending, the IRS expanded its audit
of petitioners to include the 2016 tax year and issued additional summonses to MED. Petitioners ﬁled a second lawsuit

App. 84
II.

DISCUSSION

In order to enforce a summons, the IRS must show
that the “investigation will be conducted pursuant to a
legitimate purpose, that the inquiry may be relevant to
the purpose, that the information sought is not already
within the [IRS] Commissioners possession, and that
the administrative steps required by the [Tax] Code
have been followed – in particular, that the ‘Secretary
[of the Treasury] or his delegate,’ after investigation,
has determined the further examination to be necessary and has notiﬁed the taxpayer in writing to that
effect.” United States v. Powell, 379 U.S. 48, 57-58
(1964).2 The IRS’s burden “is a slight one because the
statute must be read broadly in order to ensure that
the enforcement powers of the IRS are not unduly restricted.” United States v. Balanced Fin. Mgmt., Inc.,
769 F.2d 1440, 1443 (10th Cir. 1985) (citation omitted).
“The requisite showing is generally made by afﬁdavit
of the agent who issued the summons and who is

challenging those summonses, raising many of the same arguments that they raise here. See Medicinal Wellness Center, LLC
v. United States, No. 18-mc-00031-PAB (“Medicinal Wellness Center II”). The Court issues its order in that case simultaneously
with this Order.
2
Additionally, the IRS is barred from issuing or enforcing
summonses under the Internal Revenue Code “with respect to
any person if a Justice Department referral is in effect with respect to such person.” 26 U.S.C. § 7602(d) (I.R.C. § 7602(d)). Petitioners do not dispute Revenue Agent Pringle’s declaration that
there is no Justice Department referral in effect in relation to
them. See Docket No. 3-1 at 5, ¶ 24.

App. 85
seeking enforcement.” Id. (internal quotation marks
omitted).3
If the IRS makes the prima facie showing required
under Powell, the burden shifts to the party resisting
enforcement, whose “burden is a heavy one.” Balanced
Fin. Mgmt., Inc., 769 F.2d at 1444 (citing United States
v. Garden State National Bank, 607 F.2d 61, 68 (3d Cir.
1979)). The party resisting enforcement must establish
a defense, show a lack of good faith on the part of the
IRS, or “prove that enforcement would constitute an
abuse of the court’s process.” Id. (internal quotation
marks omitted).
A. Legitimate Purpose
The government provides a declaration from
Revenue Agent Pringle stating that he served the
summonses in relation to an “examination of the federal tax liabilities” of petitioners and that petitioners
3

Petitioners assert that the Court cannot consider the declaration from Revenue Agent Pringle without converting their
motion to dismiss into a motion for summary judgment. Docket
No. 7 at 10. When, in a summons enforcement proceeding, the
issue is whether the government presented a prima facie case under Powell, the traditional summary judgment standard applies.
High Desert Relief, Inc. v. United States, 917 F.3d 1170, 1180
(10th Cir. 2019) (applying Jewell v. United States, 749 F.3d 1295,
1297 n.1 (10th Cir. 2014)). However, a taxpayer must factually
oppose the government’s allegations by afﬁdavit or present a
proper afﬁrmative defense to defeat the government’s prima facie
case. Id. at 1183. “The traditional summary-judgment standard
[does] not permit [petitioners] to rest on conclusory statements in
the summary judgment record.” Id. at 1181.

App. 86
operate at least one marijuana retail dispensary and
two marijuana grow facilities, where they sell medicinal and recreational marijuana. Docket No. 3-1 at 2,
¶ 5-6. The government argues that its investigation of
whether petitioners’ income derives from the sale of
marijuana is a legitimate purpose in light of the bar on
deductions and credits for businesses trafﬁcking in
controlled substances under Internal Revenue Code
§ 280E. Docket No. 3 at 9-10.
Petitioners argue that the summonses do not have
a legitimate purpose because Congress did not empower the IRS to investigate violations of federal criminal drug laws. Docket No. 7 at 12. This argument is
unavailing because petitioners have not shown that a
criminal investigation is pending or that the summonses are connected to a criminal investigation. The
Tenth Circuit has rejected the argument that the IRS
lacks authority to determine whether petitioners are
trafﬁcking in a controlled substance. See Green Sol. Retail, Inc. v. United States, 855 F.3d 1111, 1121 (10th Cir.
2017) (“But § 280E has no requirement that the Department of Justice conduct a criminal investigation or
obtain a conviction before § 280E applies.” (citing Alpenglow Botanicals, LLC v. United States, No. 16-cv00258-RM-CBS, 2016 WL 7856477, at *4 (D. Colo. Dec.
1, 2016))); Alpenglow Botanicals, LLC v. United States,
894 F.3d 1187, 1197 (10th Cir. 2018) (“[I]t is within the
IRS’s statutory authority to determine, as a matter of
civil tax law, whether taxpayers have trafficked in
controlled substances.”); High Desert Relief, Inc., 917
F. 3d 1170, 1185. While the IRS may lack authority to

App. 87
criminally prosecute petitioners for trafﬁcking in controlled substances, the IRS has authority to make determinations about whether deductions are allowable
under the Internal Revenue Code (“I.R.C.”), including
§ 280E. Revenue Agent Pringle’s afﬁdavit establishes
that the summonses are related to an investigation of
petitioners’ tax liabilities, something within the IRS’s
authority. Docket No. 3-1 at 2, ¶ 4.
Regardless of whether there is an active criminal
investigation, petitioners contend that the IRS is required to grant them absolute immunity from criminal
prosecution before issuing the summonses. Docket No.
7 at 13. Petitioners argue that the statutory scheme of
I.R.C. § 280E creates a “constitutional difﬁculty” because compelling a taxpayer to turn over the requested
information implicates a taxpayer’s Fifth Amendment
privilege against self-incrimination. Id. at 2; see also
Medicinal Wellness Center II, Docket No. 12 at 21-26
(petitioners’ petition expanding on the same argument).4 Petitioners repeatedly contend that this situation is “the IRS [having authority] to administratively
investigate and determine nontax crimes.” Docket No.
7 at 13. In response, the government contends that:
(1) § 280E, as it governs voluntary deductions, does not
compel taxpayers to disclose any information; (2) taxpayers do not have Fifth Amendment rights in records
4

Although petitioners raise this argument brieﬂy in this
case, the argument is more well-developed in the brieﬁng for Medicinal Wellness Center II. As this argument turns on a question
of law, the Court will rely on brieﬁng from both cases in resolving
petitioners’ argument.

App. 88
voluntarily provided to a third party; and (3) petitioners
do not identify a “genuine hazard” of self-incrimination.
Medicinal Wellness Center II, Docket No. 15 at 11-14.
“[T]he Fifth Amendment protects against compelled self-incrimination, not the disclosure of private
information.” Fisher v. United States, 425 U.S. 391, 401
(1976) (quoting United States v. Nobles, 422 U.S. 225,
233 n.7 (1975)) (internal punctuation omitted). Relying
on this understanding of the Fifth Amendment, the
Tenth Circuit in In re First Nat’l Bank, Englewood,
Colo., 701 F.2d 115 (10th Cir. 1983), concluded that an
individual could not assert a Fifth Amendment privilege to quash a subpoena directed at a third party. The
Tenth Circuit found that “[t]here can be no violation of
one’s Fifth Amendment right not to testify against oneself where the records are in the hands of a third party;
hence, one cannot complain on this ground about a subpoena directed to third parties to produce records.” Id.
at 117. The Court follows that logic here. Petitioners
seek to quash summonses, which, like subpoenas, direct that information be produced by a witness. The
summonses request information voluntarily provided
by the petitioners to the MED. See Docket No. 3-1 at 4,
¶ 15 (noting that “marijuana growers and dispensaries
must account for all marijuana plants and products
through the METRC system”). Therefore, petitioners
do not have a Fifth Amendment privilege with respect
to the information requested by the summonses because the information is in the hands of a third party.
See First Nat’l Bank, 701 F.2d at 117. Accordingly, the
Court concludes that there is no requirement that the

App. 89
IRS provide a grant of absolute immunity before issuing a summons for information from third parties
because taxpayers do not have a Fifth Amendment
privilege with respect to that information.5
As the government has met its burden, and petitioners’ arguments that rebut the government’s prima
facie case fail, the Court ﬁnds that the government has
met its burden to show that its investigation of petitioners is being conducted for a legitimate purpose.
B. Relevant to the Legitimate Purpose
The government argues that the information it
seeks is relevant because it will “shed light on [petitioners’] correct income . . . for the 2014 and 2015 tax
years by substantiating, or contradicting, these entities’ sales and inventory ﬁgures.” Docket No. 3 at 14.
5

Although petitioners’ lack of a Fifth Amendment privilege
with regard to records held by third parties is dispositive of this
issue, the Court notes that petitioners’ argument that § 280E
compels disclosure of information is not persuasive. As the Tenth
Circuit recently noted, the tax scheme does not require anyone to
claim deductions on his or her tax returns. See Green Solution
Retail, Inc., 855 F.3d at 1121 (“Deductions . . . are not a matter of
right. Neither do they turn upon equitable considerations. They
are a matter of legislative grace.”) (citing United States v. Akin,
248 F.2d 742, 743 (10th Cir. 1957)). It was petitioners’ choice to
take deductions under § 280E on their tax returns; any investigative action taken by the IRS in response is a consequence of petitioners’ voluntary decision. See also Alpenglow Botanicals, 2016
WL 7856477 at *6 (concluding that, because the IRS obtained
information to make a tax-based determination rather than
criminal wrongdoing, petitioners failed to allege a plausible Fifth
Amendment claim).

App. 90
Revenue Agent Pringle’s declaration explains that the
information it seeks “can establish whether a marijuana business properly reported its gross receipts and
allowed deductions for cost of goods sold.” Docket No.
3-1 at 4, ¶ 15. Other than suggesting that Revenue
Agent Pringle has not explained why the reports are
necessary, petitioners do not contest the relevance of
the information sought. Docket No. 1 at 4. Petitioners,
however, cite no authority for the proposition that the
IRS must establish that the information sought is necessary as opposed to merely potentially relevant. Id.;
United States v. Arthur Young & Co., 465 U.S. 805, 814
(1984) (“The language ‘may be’ [in 26 U.S.C. § 7602] reﬂects Congress’ express intention to allow the IRS to
obtain items of even potential relevance to an ongoing
investigation, without reference to its admissibility.”);
cf. Powell, 379 U.S. at 53 (holding that the IRS need not
make a “showing of cause” to carry out an investigation). As Revenue Agent Pringle’s uncontradicted declaration explains how the records he seeks are relevant
to determining petitioners’ tax obligations, the Court
ﬁnds that the government has shown the information
it seeks is relevant to its legitimate purpose of examining petitioners’ federal tax liability. Docket No. 3-1 at
4, ¶¶ 15-16.
C. The IRS Does Not Already Have the Information Sought
Revenue Agent Pringle states that the IRS did not
possess the information sought when he requested the
summons, and that the MED has not produced the

App. 91
requested information. Docket No. 3-1 at 5-6, ¶¶ 20-21,
28-29. As petitioners do not challenge the government’s prima facie showing on this factor, the Court
ﬁnds that the government has shown that the IRS does
not already have the information sought.
D. Required Administrative Steps
In their petition, petitioners claim that the government had not shown that the IRS followed the required
administrative procedures because “[t]here is nothing
in the record to show that the IRS has served the individual taxpayers with a Notice of Audit or has even
opened an audit on any of the individuals.” Docket No.
1 at 5. The government, however, provides relevant
written notices of audit addressed to petitioners. Docket
No. 3-2 at 6-7. Further, the government provides copies
of the document requests, the summonses, and certiﬁcations that Revenue Agent Pringle served the summonses and served notice on the taxpayers. Docket No.
3-2. Finally, Revenue Agent Pringle states that the
summonses were issued in compliance with the administrative steps required by the Internal Revenue Code.
Docket No. 3-1 at 5-6, ¶ 23, 31. Petitioners do not contest that this element is satisﬁed in their response.6
6

The government alleges that petitioners and their counsel
knew, at the time of ﬁling the petition, that the notices had been
issued to petitioners because some of the exhibits submitted with
the petition were originally attached to the notice of audit. Docket
No. 3 at 16-17. Petitioners do not respond to this contention in
their response. The Court reminds petitioners and their counsel
that Fed. R. Civ. P. 11(b)(3) requires that litigants certify that any
factual contentions have evidentiary support to the best of the

App. 92
See Docket No. 7. The Court ﬁnds that this element is
satisﬁed and, accordingly, that the government has
met its burden under Powell.
E. Lack of Good Faith or Abuse of Process
Petitioners argue that, notwithstanding the government’s prima facie case, the summonses should not
be enforced because the IRS has not acted in good faith
in issuing the summonses. Docket No. 7 at 18. Petitioners also argue that the summonses are unreasonable
and unenforceable because they are overbroad, the
summonses force the MED to prepare documents that
do not exist, the summonses would violate petitioners’
Fourth Amendment rights, and the summonses require the commission of a state law crime. Id. at 13-19.
None of these arguments has merit.
First, petitioners allege that “[i]t is not in good
faith to allege and investigate by way of summons inherently criminal activity and fail to refer the matters
to the [Department of Justice].” Id. at 18. As noted
above, the IRS can enforce IRC § 280E even absent a
criminal conviction or prosecution. See Green Sol. Retail, Inc., 855 F.3d at 1121; Alpenglow Botanicals, 894
F.3d at 1197; High Desert Relief, Inc., 917 F.3d at 118586. Thus, there is no basis to conclude that the IRS
is harassing petitioners without a proper purpose by
person’s knowledge information, and belief. See also Fed. R. Civ.
P. 11(c)(3) (permitting the court to sua sponte order an attorney,
law ﬁrm, or party to show cause why conduct has not violated
Rule 11(b)).

App. 93
issuing the challenged summonses. See Villarreal v.
United States, 524 F. App’x 419, 423 (10th Cir. 2013)
(unpublished) (rejecting as conclusory a taxpayer’s
claim that the IRS’s subpoena of bank records was a
“harassment campaign”).
Petitioners next claim that the summonses are
overbroad because they constitute a “ﬁshing expedition” on third-party records, speciﬁcally, licenses held
by the Medical Wellness Center’s owners. Docket No. 7
at 17 (quoting United States v. Coopers & Lybrand, 550
F.2d 615, 619-20 (10th Cir. 1977)). “A summons will be
deemed unreasonable and unenforceable if it is overbroad and disproportionate to the ends sought.” Coopers & Lybrand, 550 F.2d at 621. Here, Revenue Agent
Pringle states that this information will “verify that
[petitioners] own [the Medical Wellness Center] and
Medicinal Oasis.” See Docket No. 3-1 at 6, ¶ 25. The
Court ﬁnds that this request does not constitute a ﬁshing expedition, as the government has shown that the
information (licenses held) is proportionate to the
ends sought (conﬁrming whether the Aragons and Mr.
Hickox own the entities). See Coopers & Lybrand, 550
F.2d at 621. Therefore, this argument fails.
Next, petitioners contend that the summonses
would force the MED to “create documents,” which is
beyond the summoning power of the IRS. Docket No. 7
at 19. This argument also fails. As another court in this
district has observed:
Put simply, the summons requests what
the summons requests. Should the items

App. 94
requested exist and be in MED’s possession,
then MED should be expected to produce that
which has been requested. To take the analogy used by respondent, should MED possess
something akin to a bank statement . . . then
compliance with the summons should be expected. If, however, the summons should require MED to produce a report that it would
not ordinarily or otherwise produce from its
database of information, then respondent
very well may ﬁnd itself having to process
that information itself. In other words, in such
a situation, MED may only need to produce
the entirety of the database of information because that is the only document or data source
that MED has created and possesses.
See Riﬂe Remedies, LLC v. United States, No. 17-mc00062-RM, 2017 WL 6021421 at *2 (D. Colo. Oct. 26,
2017). While the IRS cannot compel the MED to create
documents, this does not mean that enforcing the summonses would indicate either a lack of good faith or an
abuse of process by the IRS. See id.
Separately, petitioners argue that the summonses
violate their Fourth Amendment rights. Docket No. 7
at 13-16. Petitioners argue that they have a reasonable
expectation of privacy in the METRC records, and the
IRS compelling MED to turn over that information
amounts to an unconstitutional search. Id.
The Fourth Amendment provides that the “right of
the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures . . . shall not be violated.” U.S. Const. amend. IV.

App. 95
The Fourth Amendment protects “what [one] seeks to
preserve as private, even in an area accessible to the
public,” but not “[w]hat a person knowingly exposes to
the public, even in [his or her] own home or ofﬁce.” Katz
v. United States, 389 U.S. 347, 351 (1967). In examining
whether a person’s Fourth Amendment rights are violated, courts ask “whether the person claiming the constitutional violation had a legitimate expectation of
privacy in the premises searched.” Byrd v. United
States, 138 S. Ct. 1518, 1526 (2018) (citing Rakas v. Illinois, 439 U.S. 128, 133 (1978)) (internal quotations
omitted).
In United States v. Miller, 425 U.S. 435 (1976), the
Supreme Court concluded that the Fourth Amendment
did not protect documents provided by respondent to
his bank from an IRS summons. The Supreme Court
reasoned that “[t]he depositor takes the risk, in revealing his affairs to another, that the information will be
conveyed by that person to the [g]overnment . . . even
if the information is revealed on the assumption that
it will be used only for a limited purpose.” Id. at 443.
The Supreme Court rejected an argument that the
Bank Secrecy Act’s requirement that certain records be
kept by banks changed the Fourth Amendment analysis because the depositor still “voluntarily conveyed”
the information to the bank. Id. at 442.
The Court concludes that the same logic applies in
this case. Petitioners “reveal[ed their] affairs to another,” thus taking the risk that the third party would
convey that information to the government. Id. at
443. Although petitioners contend that they do not

App. 96
“voluntarily” give this information to the MED, because it is required by Colorado law, petitioners are not
required or forced to engage in business activities that
make them subject to the MED’s requirements. See
Docket No. 7 at 15. As in Miller, the fact that the law
requires the MED to obtain certain information does
not impact the Fourth Amendment analysis. See Miller, 425 U.S. at 443. The petitioners willingly gave information to a third party so they could engage in
business activities. By “knowingly expos[ing]” this information, petitioners forfeited their reasonable expectation of privacy in that information under the Fourth
Amendment. See Katz, 389 U.S. at 351. Accordingly, the
IRS does not – as petitioners contend – need a warrant
and a ﬁnding of probable cause to issue a summons for
the METRC data. See Docket No. 7 at 16.
Finally, petitioners suggest that enforcing the
summons would compel individuals to commit a state
law crime. Docket No. 7 at 18-19. Under Colorado law,
disclosure of METRC information is a state law class 1
misdemeanor. See Colo. Rev. Stat. § 44-11-201(4). The
statute provides that “[a]ny person who discloses
confidential records or information in violation of the
provisions of this article . . . commits a class 1 misdemeanor,” and that employees of the MED must “[m]aintain the conﬁdentiality of reports or other information
obtained from a medical or retail licensee . . . from public inspection pursuant to state law.” Colo. Rev. Stat.
§§ 44-11-201(4) and 202(1)(d). Petitioners fail to show
how the MED providing the METRC information to
the IRS is allowing for “public inspection,” given that

App. 97
the Internal Revenue Code provides that “[r]eturns
and return information shall be conﬁdential.” See
I.R.C. § 6103(a). Further, the Court observes that this
is not the ﬁrst proceeding where either courts in this
district or the Tenth Circuit have enforced summonses
to the MED. See Green Sol. Retail, Inc. v. United States,
No. 16-mc-00137-PAB, 2018 WL 1305449 (D. Colo. Feb.
12, 2018); Futurevision, LTD v. United States, No. 17mc-00041-RBJ, 2017 WL 2799931 (D. Colo. May. 25,
2017); Riﬂe Remedies, 2017 WL 6021421; Green Sol Retail, Inc., 855 F.3d 1111. Petitioners have not indicated that the MED itself has objected to any of these
enforced summonses. Accordingly, petitioners have
not persuaded the Court that this statute applies
here.
If a taxpayer “cannot factually support a proper
afﬁrmative defense, the district court should dispose of
the proceeding on the papers before it and without an
evidentiary hearing” because holding such a hearing
“would be a waste of judicial time and resources.” Balanced Fin. Mgmt., 769 F.2d at 1444. Because petitioners have failed to present factual support for their
claims that the IRS is not acting in good faith or is
abusing the process, the Court ﬁnds that petitioners
have not met their burden and will enforce the summonses. Therefore, petitioners’ petition to quash the
summons will be dismissed.

App. 98
III. CONCLUSION
Accordingly, it is
ORDERED that petitioners’ Petition to Quash
Summonses [Docket No. 1] is DISMISSED. It is further
ORDERED that the United States’ Motion to Dismiss Petition and Enforce Summonses [Docket No. 3]
is GRANTED. The summonses issued to the Colorado
Marijuana Enforcement Division are ENFORCED
pursuant to 26 U.S.C. § 7604. It is further
ORDERED that this case is closed.
DATED April 24, 2019.
BY THE COURT:
s/ Philip A. Brimmer
PHILIP A. BRIMMER
Chief United States
District Judge

